<html>
<title> - [H.A.S.C. No. 111-105] DEFEATING THE IMPROVISED EXPLOSIVE DEVICE (IED) AND OTHER ASYMMETRIC THREATS: REVIEWING THE PERFORMANCE AND OVERSIGHT OF THE JOINT IED
DEFEAT ORGANIZATION (JIEDDO)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-105] 

 DEFEATING THE IMPROVISED EXPLOSIVE DEVICE (IED) AND OTHER ASYMMETRIC 
   THREATS: REVIEWING THE PERFORMANCE AND OVERSIGHT OF THE JOINT IED 
                      DEFEAT ORGANIZATION (JIEDDO) 

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 29, 2009

                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-776 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
SUSAN A. DAVIS, California           MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GLENN NYE, Virginia                  DOUG LAMBORN, Colorado
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
                Sean McDonald, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, October 29, 2009, Defeating the Improvised Explosive 
  Device (IED) and Other Asymmetric Threats: Reviewing the 
  Performance and Oversight of the Joint IED Defeat Organization 
  (JIEDDO).......................................................     1

Appendix:

Thursday, October 29, 2009.......................................    39
                              ----------                              

                       THURSDAY, OCTOBER 29, 2009
 DEFEATING THE IMPROVISED EXPLOSIVE DEVICE (IED) AND OTHER ASYMMETRIC 
   THREATS: REVIEWING THE PERFORMANCE AND OVERSIGHT OF THE JOINT IED 
                      DEFEAT ORGANIZATION (JIEDDO)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Metz, Lt. Gen. Thomas F., USA, Director, Joint Improvised 
  Explosive Device (IED) Defeat Organization.....................     6
Schear, Dr. James A., Deputy Assistant Secretary of Defense for 
  Partnership Strategy and Stability Operations, Department of 
  Defense........................................................     3
Solis, William M., Director, Defense Capabilities and Management, 
  Government Accountability Office...............................     8

                                APPENDIX

Prepared Statements:

    Metz, Lt. Gen. Thomas F......................................    55
    Schear, Dr. James A..........................................    48
    Solis, William M.............................................    68
    Wittman, Hon. Rob............................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    93

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    97
 DEFEATING THE IMPROVISED EXPLOSIVE DEVICE (IED) AND OTHER ASYMMETRIC 
   THREATS: REVIEWING THE PERFORMANCE AND OVERSIGHT OF THE JOINT IED 
                      DEFEAT ORGANIZATION (JIEDDO)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                        Washington, DC, Thursday, October 29, 2009.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room HVC-210, Capitol Building, Hon. Vic Snyder (chairman of 
the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Good morning. The hearing will come to order. 
Welcome, gentlemen. I think for most of you this is your first 
time in our temporary hearing room here, but this lovely room 
is here in the Capitol.
    This is the second hearing that this subcommittee has had 
in the last couple years on the performance and oversight of 
the Joint Improvised Explosive Device (IED) Defeat 
Organization, known as JIEDDO. This hearing follows last year's 
hearing, which I believe was in September of last year, and 
will explore the question: Is current oversight of JIEDDO 
within the Department of Defense (DOD) sufficient for an 
organization receiving funding of such considerable size, 
flexibility, and importance?
    IEDs remain the number one cause of casualties to coalition 
forces in Iraq and Afghanistan. Although IEDs are not a new 
threat, they have been used with unprecedented frequency in 
Iraq and Afghanistan. While the decrease in successful attacks 
in Iraq is encouraging, that success has not been replicated in 
Afghanistan, which has seen an increase in the success and 
lethality of attacks with our increase in forces there.
    Since former U.S. Central Command (CENTCOM) Commander 
General Abizaid called for a Manhattan Project-like effort 5 
years ago to defeat IEDs, Congress has provided nearly $17 
billion to DOD's efforts. This effort has grown from a 12-man 
Army task force to the Joint IED Defeat Organization, or 
JIEDDO, which currently employs a staff of about 3,600 
dedicated government, military, and contract personnel.
    There is no doubt that despite the complexity and 
difficulty of its mission, JIEDDO and its predecessor 
organizations have made significant contributions to the 
counter-IED effort. But we should still ask, is this effort as 
successful as it could be? Have the financial controls of 
oversight kept pace with an organization of this size?
    One thing we want to learn today is whether DOD's own 
oversight over the JIEDDO functions has evolved to an 
appropriate level and with sufficient controls. Last year this 
subcommittee recommended that JIEDDO reexamine whether JIEDDO's 
reporting arrangement to the Deputy Secretary of Defense 
(DEPSECDEF) was appropriate. Has this been done and what were 
the conclusions?
    As the subcommittee noted in last year's report on JIEDDO, 
having such a high-ranking, high-level senior boss can easily 
lead to little senior attention during this very, very busy 
time for our forces in the Pentagon. For this hearing, as last 
year, the Office of the Secretary of Defense (OSD) has had 
difficulty deciding on a witness who could comment on OSD 
oversight of JIEDDO.
    I look forward to this hearing today. We very much 
appreciate all of your efforts, appreciate the efforts of 
JIEDDO and all the personnel, both military, civilian, and 
contract, who work in this organization.
    I now turn to Mr. Wittman for any comments he would like to 
make.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Chairman Snyder.
    And good morning to our witnesses. Thank you so much for 
taking time out of your busy schedule to join us today.
    As the gruesome events that unfolded in Baghdad earlier 
this week prove, improvised explosive devices, or IEDs, remain 
a deadly threat, especially in the Middle East and South Asia. 
In fact, the number and lethality of IED incidents in 
Afghanistan continues to grow and the nation of Pakistan is 
suffering frequent IED attacks also.
    Even the United States is not immune to this threat and our 
deployed troops cannot ever let their guard down. Despite the 
best efforts of JIEDDO and others, it is still far too easy for 
evildoers to make and deploy bombs that indiscriminately kill 
and maim scores of innocent people.
    If there were an easy human or physics problem here we 
would have had the solution already. I know we have made 
progress, but I would like to know how we can do better and 
what it will take to get there.
    Today we are following up on the subcommittee's excellent 
report in November 2008, which quoted General Metz, who is here 
as a witness today, as saying that the IED threat would never 
be completely removed from the battlefield. And I am sure 
General Metz is correct. The enemy will always seek 
vulnerabilities to attack, and we cannot harden everything and 
still be effective in counterinsurgency operations.
    Even so, I am disturbed by the negative trends in 
Afghanistan. A year ago this subcommittee noted that effective 
attacks against coalition forces were increasing compared to 
previous years. Since then the number of effective attacks has 
continued to climb, and climb at a rate well beyond the 
increased number of coalition forces deployed in country.
    Despite this ever-worsening operational threat to our 
troops, funding for JIEDDO has been significantly reduced. 
Maybe this funding reduction reflects better conditions in Iraq 
and doesn't reflect a reduced effort in Afghanistan. It is 
difficult to tell from here, since DOD continues to request 
JIEDDO funds as colorless money that can be spent as command 
wishes without informing Congress how the work is prioritized.
    The subcommittee expressed concern with this funding 
mechanism in last year's report, and our concern was not 
addressed and as you can see has now led to real questions 
about JIEDDO's priorities. With attacks in Afghanistan 
increasing, I asked for General Metz to provide us some detail 
on efforts being made in support of Operation Enduring Freedom. 
In addition, I ask all witnesses today, as they are able, the 
status of the issues raised in our November 2008 report.
    Mr. Chairman, thank you so much for calling this hearing, 
and I look forward to the testimony of our witnesses.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 43.]
    Dr. Snyder. Thank you, Mr. Wittman.
    Our witnesses today are Dr. James Schear, the Deputy 
Assistant Secretary of Defense for Partnership Strategy and 
Stability Operations in the Department of Defense; Lieutenant 
General Thomas Metz, the U.S. Army director of the Joint 
Improvised Explosive Device Defeat Organization, JIEDDO.
    General Metz, you are leaving soon, are you not at some 
time?
    We appreciate your service.
    And Mr. William Solis, the Director of Defense Capabilities 
and Management, the Government Accountability Office (GAO).
    Dr. Schear, we'll begin with you. The clock will be for 
five minutes; if you see the red light and you have some more 
things to tell us feel free to carry on. So, Dr. Schear.

STATEMENT OF DR. JAMES A. SCHEAR, DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE FOR PARTNERSHIP STRATEGY AND STABILITY OPERATIONS, 
                     DEPARTMENT OF DEFENSE

    Dr. Schear. Thank you very much, Mr. Chairman.
    Members of the committee--of the subcommittee, ladies and 
gentlemen, it is my great pleasure to testify here today about 
the important work that the U.S. Department of Defense is doing 
in countering the threat of improvised explosive devices, and 
it is a particular honor to be able to appear here this morning 
with Lieutenant General Tom Metz, who has provided superb 
leadership for this effort over the past two years.
    With your permission, Mr. Chairman, I would like to ask 
that my written testimony be submitted----
    Dr. Snyder. Yes. All statements will be made part of the 
record.
    Dr. Schear. Thank you. Let me also begin by thanking you, 
and along with you Congressman Wittman and the members of this 
committee, and indeed the full committee, for your unwavering 
support for our armed forces service personnel who serve 
courageously in hostile environments in today's irregular 
warfare battle space. The wars of the past decade have 
challenged our military greatly to adjust and adapt rapidly to 
deadly tactics devised by our enemies on the battlefield, and 
your unstinting support has been critical in meeting those 
challenges.
    Clearly, as Mr. Wittman has said, sir, one of the biggest 
challenges we face is the IED. It remains, without question, 
the violent extremist's weapon of choice against U.S. armed 
forces. Over the past year we have seen an increase in the use 
of IEDs against U.S. forces in Afghanistan not only as a 
standalone weapon but also increasingly part of complex attacks 
involving more conventional direct-fire weapons. The IED is the 
weapon responsible for inflicting the most casualties on U.S. 
forces in Afghanistan.
    Although we have seen on the Iraq side a decrease in the 
number of attacks and IEDs have become less effective against 
U.S. personnel there, the insurgents continue to use IEDs to 
attack and destabilize the Iraqi government.
    Additionally, IEDs have become a major source of concern in 
parts of Africa, other parts of the Asia Pacific region, and 
Latin America. In this time of growing asymmetric threats we 
believe the use of IEDs will remain the most likely weapon of 
choice for violent groups because they are low-cost, high-
impact weapons that inflict maximum casualties at minimum risk 
and expense.
    Within the Defense Department the Joint IED Defeat 
Organization has the responsibility, as you know, to lead, 
focus, and advocate all counter-IED efforts. Secretary Gates 
and his leadership team strongly support JIEDDO and the 
institutionalization of its beneficial impact throughout our 
large and diverse defense community.
    The unique authorities and capabilities of JIEDDO enable us 
to rapidly experiment, develop, and field both material and 
non-material solutions to the grave and persistent threat of 
IEDs. Perhaps most important, JIEDDO is delivering for our 
customers. Our combatant commanders continue to confirm that it 
provides a unique and vital capability to counter IEDs.
    As this committee knows, JIEDDO is truly a joint 
organization that relies on inputs from across the Department. 
In my written testimony I provide more detail on JIEDDO's 
three-tiered governance structure, but let me summarize its key 
features quickly.
    JIEDDO first presents its initiatives to the Joint Resource 
and Acquisition Board, so-called JRAB, which is composed of O-6 
and senior civil service members from across the Department. 
After that analysis the initiative is then briefed to the Joint 
Integrated Process Team, the JIPT. This board includes general 
and flag officers as well as civilian senior executive service 
members.
    Finally, issues that are approved by the JIPT for senior-
level review go to our DEPSECDEF-chaired senior resource 
steering group, which includes the deputy as well as three- and 
four-star officers, including the vice chiefs of staff of each 
of the services. And it is drawn from the same organizations 
that support the effort at lower levels. When recommendations 
are teed up in a written form for the deputy he makes a final 
decision on whether to fund a proposed initiative.
    I appreciate how complex this oversight structure may 
appear. It is, indeed, multifaceted. It remains a work in 
progress. JIEDDO expects to publish a revised governance 
structure by the end of November and the applicable DOD 
Directive 2000.19E is due for revision next year.
    In terms of the distinctive role played by the Office of 
the Under Secretary of Defense for Policy, let me provide a bit 
more detail--and I realize I am already overstepping my time, 
sir. Our Under Secretary of Defense, Michele Flournoy, serves 
as the principal staff assistant to DEPSECDEF and a principal 
advisor to JIEDDO regarding DOD policy and plans to ensure that 
the organization's activities are fully supportive of our 
larger defense and national security strategies.
    When OSD Policy meets within--serves on the governance 
structure we typically ask six questions: First, has the 
combatant commander requested this specific IED capability? 
That is usually easy to determine but sometimes we have to do 
some special digging.
    Secondly, has the capacity been appropriately tested for 
both field uses and to ensure that it will work as expected? 
While we are acutely conscious of the need to ensure fast 
fielding of systems we also want to keep defective or non-
performing items out of the field.
    Question three: Does the initiative fit within other DOD or 
U.S. Government policies? And in cases where issues do arise, 
how are we to resolve actual or potential conflict?
    Question four: Does the initiative provide a comprehensive 
approach that includes a plan for acquisition, training, and 
sustaining the capability over time? While JIEDDO initiatives 
rely upon the services to take on these tasks after the first 
two years of funding, it is essential that the basics for those 
first two years be well laid out.
    Question five: Is JIEDDO maintaining a balanced portfolio? 
That is, are we doing everything we can to balance short-term 
acquisition and medium-term research and development 
investments? And how well are we balancing high-risk, big-
return efforts against lower-risk, moderate-return efforts? And 
are we providing defensively-focused force protection in 
relation to our ability to work on the offensive side, on the 
attack-the-network priority?
    And finally, the last question: What can we do to improve 
our coalition counter-IED efforts, including especially with 
members of the coalition who operate alongside of or in lieu of 
our service members in today's irregular warfare environment?
    I would say, sir, of all those questions I would lay 
special emphasis on the last one. OSD Policy works with JIEDDO 
to assist our partners and allies in developing compatible 
counter-IED technology and training. We have worked to provide 
the necessary authorizations and funding so that counter-IED 
equipment, like the SYMPHONY system, and tactics can be 
provided to our coalition partners.
    In the future we have, regrettably, high confidence that 
the use of IEDs by terrorists, insurgents, and criminals will 
continue across the globe and probably increase. And while the 
need to have an organizational steward like JIEDDO for this 
critical mission may be affected by changes in the size of our 
expeditionary deployments over time, the requirement itself 
will not disappear.
    Mr. Chairman, thank you again for this opportunity to 
testify. We look forward to working closely with members of 
this committee on this important task in the future. Thank you, 
sir.
    [The prepared statement of Dr. Schear can be found in the 
Appendix on page 48.]
    Dr. Snyder. Thank you, Dr. Schear.
    General Metz.

  STATEMENT OF LT. GEN. THOMAS F. METZ, USA, DIRECTOR, JOINT 
     IMPROVISED EXPLOSIVE DEVICE (IED) DEFEAT ORGANIZATION

    General Metz. Chairman Snyder and Congressman Wittman, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today and report on the Joint 
Improvised Explosive Device Defeat Organization, which I am 
indeed honored to lead.
    Since our last meeting in September there have been over 
10,000 IED incidents in Iraq. These incidents are diverse, and 
the devices that were used reflect a wide range of arming and 
firing switches ranging from relatively simple command wire to 
sophisticated radio-controlled and passive infrared switches. 
Yet in spite of the large volume and the diversity of the IED 
attacks the number that are effective against our forces 
continued to decline for the second straight year.
    While I am pleased with the progress in Iraq, our work is 
not yet done. Our organization is poised to support our 
continuing diplomatic mission and U.S. forces as the drawdown 
proceeds in accordance with the security agreement.
    In addition, while we have learned an enormous amount from 
our experience in Iraq, not all of these lessons translate to 
our efforts in Afghanistan. The environment and the enemy in 
Afghanistan pose many different and difficult challenges.
    Although initially slower to develop in Afghanistan, the 
IED has now replaced direct-fire weapons as the enemy's weapon 
of choice. Furthermore, Afghanistan local insurgents, tribal 
faction, and the Taliban enjoy a greater freedom of action to 
emplace large numbers of IEDs in movement corridors such as the 
Ring Road, which are so vital to our success.
    Our challenge is further compounded by these groups' 
intimidation of the local populace. To ensure the most 
comprehensive support to this complex theater, JIEDDO is 
deploying over 100 initiatives to Afghanistan.
    IEDs also pose a significant threat outside of CENTCOM. 
Nearly 300 IED incidents every month around the globe confirm 
that the dangers from this weapon reach far beyond the borders 
of Afghanistan and Iraq. Since September of 2008 there have 
been more than 3,500 total IED incidents outside of Afghanistan 
and Iraq, and the number is growing. Able to rapidly exploit 
readily available commercial technology, violent extremists 
easily share the results of their efforts across the near real-
time global communications grid.
    We support all the combatant commanders as they respond to 
these IED threats through a rapid acquisition process that we 
call the Joint IED Capabilities Approval and Acquisition 
Management Process, the acronym JCAAMP. Congressionally-
directed funding allows us to act with a sense of urgency 
inside 24-month period where the Department's budget processes 
cannot normally operate. As a result, over the past three years 
the JIEDDO has evolved as the Department's premier agency for 
rapid development and delivery of capabilities in the hands of 
warfighters.
    The JCAAMP is not perfect, but it allows us to bypass 
current cumbersome, risk-adverse processes associated with the 
service acquisition efforts in support of their force 
modernization programs. The exploitation and use of information 
is one of the greatest asymmetric advantages we have. The 
Counter-IED Operations Integration Center, or the acronym COIC, 
establishes this for JIEDDO by fusing near real-time 
information from over 100 databases and delivering requests for 
support back to warfighters in record time for use at the 
tactical level of targeting.
    However, I continue to believe the ultimate key to our 
success has been and will always be world-class training. 
Unfortunately, no one anticipated the sheer amount and 
complexity of the training required to successfully counter 
IEDs.
    JIEDDO's mission is to grab emerging and hard training 
problems and find ways for the services and our partners to 
overcome them. We are making great progress but much remains to 
be done.
    Since our last meeting I have become more convinced than 
ever that we live in an era of persistent conflict. I agree 
with Secretary Gates that the clear lines that distinguish 
conventional and irregular forces have blurred.
    We now confront complex hybrid forms of conflict ranging 
from near-peer competitors who will use irregular and 
asymmetric tactics to non-state and rogue state actors capable 
of generating violence across a broad spectrum. These weapons 
range from IEDs to weapons of mass destruction.
    We have been in this fight for eight years, and I believe 
this enemy will continue to fight us for the foreseeable future 
and probably beyond my lifetime. Violent extremists will 
continue to wage conflict against human targets, and their 
weapon of choice will continue to be the IED.
    As a result, we can never be satisfied with the results we 
have achieved until we have diminished the strategic effects of 
the IED, reducing their appeal for increased and global 
employment. We must strive for an ever greater impact on the 
continued aggressive developments of new, innovative ways to 
make this weapon system too costly to produce and too risky to 
employ. While we will never completely chase this weapon off 
the battlefield, we must continue to eliminate its ability to 
affect us strategically.
    A permanent JIEDDO, funded in the base budget, sends a 
clear signal that we understand the complexities of the 
challenge. We must be willing to invest the money, the time, 
the energy, and the talent to make sure we win. This is not an 
easy task, but I believe that it is necessary.
    In closing, allow me to point out that I have proudly worn 
the uniform of the United States Army for over 43 years. As I 
near retirement, I could not have asked for a better 
assignment. I could not be more proud of the men and women who 
are helping me defeat the IED as a weapon of strategic 
influence. They are passionate about our mission, and they 
display a sense of urgency as they work to defeat the device, 
attack the networks, and train the force.
    Finally, Mr. Chairman, I would like to thank you and the 
Members of Congress and the subcommittee for your continued 
support of JIEDDO, the sincere interest in making sure that our 
warfighters have an agile, responsive, passionate organization 
focused on providing them the best counter-IED capabilities the 
Nation has to offer. Thank you for inviting me here today to 
discuss the issue I feel most passionate about, and I look 
forward to your questions. And I apologize for going----
    Dr. Snyder. You are fine. Thank you, General Metz.
    [The prepared statement of General Metz can be found in the 
Appendix on page 55.]
    Dr. Snyder. Mr. Solis.

 STATEMENT OF WILLIAM M. SOLIS, DIRECTOR, DEFENSE CAPABILITIES 
        AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Solis. Chairman Snyder, Ranking Member Wittman, members 
of the subcommittee, I appreciate the opportunity to be here 
today to discuss DOD's management and oversight of its efforts 
to defeat improvised explosive devices, or IEDs. As mentioned 
earlier, these devices continue to be the number one threat to 
troops in Iraq and Afghanistan.
    DOD created JIEDDO in January 2006 to focus its counter-IED 
efforts and positioned it to report directly to the Deputy 
Secretary of Defense rather than through traditional lines of 
authority and oversight. Since that time we have issued several 
reports on JIEDDO's management and operations, including one we 
are going to issue today.
    My testimony today will draw on this latest report plus 
ongoing work to discuss: one, steps JIEDDO and DOD have taken 
to improve the management of counter-IED efforts; and two, 
challenges affecting DOD's ability to oversee JIEDDO.
    Since its creation JIEDDO has taken several steps to 
improve management of counter-IED efforts. These actions 
include developing an overarching framework for Department-wide 
counter-IED efforts, which delineates specific roles and 
responsibilities for organizations involved in those efforts, 
and working with the services to improve visibility over their 
counter-IED efforts.
    While these actions represent some progress, we have 
identified several challenges that continue to affect DOD's 
ability to oversee JIEDDO. First, JIEDDO and the services lack 
full visibility over counter-IED initiatives throughout DOD 
even though many officials told us that such visibility would 
be of great benefit in coordinating and managing the 
Department's counter-IED programs.
    For example, although JIEDDO was mandated to focus all DOD 
actions to help defeat IEDs, most of the organizations engaged 
in the counter-IED efforts prior to JIEDDO have continued to 
develop, maintain, and in some cases expand their own counter-
IED capabilities. Although JIEDDO and several service 
organizations have developed their own counter-IED databases, 
there is no comprehensive database to combine this information. 
Further, these service databases do not capture all the 
counter-IED efforts, limiting their ability to provide JIEDDO 
with timely and comprehensive summary of their existing 
initiatives.
    Second, JIEDDO continues to face difficulties coordinating 
the transition of funding responsibilities for counter-IED 
efforts to the services. Transition is hindered by funding gaps 
between JIEDDO's transition timeline and DOD's base budget 
cycle. It is also hindered when JIEDDO does not fully consider 
service requirements in the acquisition process.
    For example, in 2007 JIEDDO funded a fielded man-portable 
IED jammer. Although the system was developed in response to a 
Central Command requirement, the Army and Marine Corps have no 
formal requirement for it, casting doubts as to which DOD 
organizations will be required to pay for the continued 
procurement and sustainment of the system. This could delay the 
transition of the program, forcing JIEDDO to continue to fund 
it at the expense of new initiatives.
    Third, JIEDDO lacks clear criteria for defining what 
counter-IED training initiative it will fund. As a result, 
JIEDDO has funded training activities that have primary uses 
other than defeating an IED, such as role players and simulated 
villages to replicate Iraqi conditions at various combat 
training centers.
    Fourth, JIEDDO lacks the means as well as reliable data to 
gauge the effectiveness of counter-IED efforts. For example, we 
found that JIEDDO lacks key data needed to evaluate the 
effectiveness of its counter-IED initiatives.
    Fifth, JIEDDO has not consistently applied its counter-IED 
initiative acquisition process, which was referred to earlier 
as JCAAMP. For example, we found that 48 of the 56 JIEDDO 
counter-IED initiatives we reviewed have been excluded from all 
or part of JIEDDO's review and approval process, including 16 
that required approval by the DEPSECDEF or the JIEDDO director.
    Sixth, JIEDDO lacks adequate internal controls required to 
provide DOD assurance that it is achieving it objectives. In 
July 2009 JIEDDO reported that a material weakness has existed 
in its internal controls since the organization was 
established. Such a weakness could adversely affect JIEDDO's 
ability to meet its objectives.
    In conclusion, although JIEDDO has taken important steps, 
the Department continues to face a number of challenges that, 
if unaddressed, may result in the potential duplication of 
effort, unaddressed capability gaps, and inefficient use of 
resources in a fiscally-challenged environment. Further, the 
Department will lack the basic confidence that it has retained 
the necessary capabilities to address the IED threat for the 
long term.
    Mr. Chairman, this concludes my statement. I will be happy 
to take any answers from you or the subcommittee.
    [The prepared statement of Mr. Solis can be found in the 
Appendix on page 68.]
    Dr. Snyder. Thank you, Mr. Solis.
    We have been joined by some members who are not members of 
the subcommittee, and they will be allowed to participate in--
--
    You will get bumped down the line if we have some other 
subcommittee members come in, but we will give everyone a 
chance to----
    Mr. Solis, you said DOD concurred with your 
recommendations. Who specifically concurred--what person?
    Your microphone is not on, sir.
    Mr. Solis. I would have to see, but it was not--we have 
that? It was JIEDDO for the Department.
    Dr. Snyder. I am sorry?
    Mr. Solis. JIEDDO for the Department.
    Dr. Snyder. JIEDDO. That is not really a person, though, is 
it?
    Mr. Solis. I would have to look.
    Dr. Snyder. I was actually wondering who the individual 
person was.
    General Metz, I want to go through some of the criticism 
that GAO made and give you a chance to respond, and I am going 
from the draft I was given a day or two ago--I am going to read 
from their conclusions. First, JIEDDO and the services lack 
full visibility over counter-IED initiatives throughout DOD. 
First, JIEDDO and the services lack a comprehensive database of 
all existing counter-IED initiatives, limiting their visibility 
over counter-IED efforts across the Department.
    Although JIEDDO is currently developing a management system 
that will track initiatives as they move through JIEDDO's 
acquisition process, the system will only track JIEDDO-funded 
initiatives, not those being independently developed and 
procured by the services and other DOD components. What is your 
response to that criticism?
    General Metz. Well, sir, I appreciate the report including 
that we are working on that database. It was obvious to me when 
I came in that the pace at which business had been done, that 
sense of urgency was needed.
    When General Meiggs stood up the organization the IEDs in 
Iraq were about 1,500 a month and they were to grow to 2,500 a 
month and remain there for most--the last of 2006 and the first 
of 2007. So I am sure his priorities were to help the 
warfighter. Knowing that we needed that data, we have worked on 
developing our internal database effort.
    Now, as it relates to us not having the visibility of the 
other services or agencies that are doing things, I think we 
do. I think there are multiple----
    Dr. Snyder. So you don't agree? You do not agree with Mr. 
Solis' criticism?
    General Metz. I do not agree that we don't have any 
awareness of what is going on across the Department because 
there are enough forums that----
    Dr. Snyder. I think his criticism was not that you didn't 
have ``any awareness.'' His criticism is you lack a 
comprehensive database. You agree you lack a comprehensive 
database?
    General Metz. I agree that we lack a comprehensive database 
and we are working on not only ours but to work out how we 
interface with others to ensure that we don't have those--a 
duplicative effort. I think, however, that an overlapped effort 
may be wise to ensure gaps and seams are covered, but we do 
need to work to create that database.
    Dr. Snyder. To assess that you have an overlapped effort, 
though, implies that you would actually have a database that 
you could look at and say, ``Yes, they are working on that too 
and we are working on it, but that is okay.''
    Second--this is again from the GAO--the services lack full 
visibility over those JIEDDO-funded initiatives that bypass 
JIEDDO's acquisition process. With limited visibility both 
JIEDDO and the services are at risk of duplicating efforts. 
What is your comment about that?
    General Metz. Sir, the services participate in our JCAAMP 
process, which includes ``A''-level assessments of initiatives, 
flag-level, and if it is--and now in almost every case the 
cumulative efforts are above $25 million, which our directive 
says I have got to go to the Secretary. So the senior resource 
steering committee gets a four-star and above-level look at all 
those initiatives.
    And I think your concerns are those initiatives that don't 
go through the JCAAMP process----
    Dr. Snyder. This is a specific criticism that you have--
that there are initiatives that are funded by JIEDDO that, in 
the words of GAO, ``bypass JIEDDO's acquisition process.'' They 
would not come before the groups that you referred to.
    General Metz. Yes, sir.
    Dr. Snyder. Do you agree that GAO's criticism is----
    General Metz. Well, I agree that there are some initiatives 
that I have approved below the $25 million level that I have 
moved quickly to the warfighters because I saw the urgency and 
made that decision. I believe that we have, during that 
process, tried to be as transparent as we possibly could, and 
we certainly aren't hiding data from anyone.
    But we could be rightfully criticized if indeed someone 
says that we did not fully disclose. But my efforts to be 
transparent in the leadership of this organization is one of 
the very high priorities----
    Dr. Snyder. My time is about to run out, but I think you 
talk about in your--everyone wants you to have speed at moving 
things to the warfighter, but the criticism is that the 
services who oversee the warfighters directly, that they lack 
full visibility over things that you fund. I mean, that is 
their criticism. It is either accurate or it is not.
    But you are saying if things move the warfighters and 
services do indeed know about it. Is that what you are saying?
    General Metz. I think that we cross over in so many forms 
throughout the Department----
    Dr. Snyder. Right.
    General Metz [continuing]. That I believe that the 
knowledge is there, and I would have to work carefully with 
each piece of data that the GAO has collected.
    Dr. Snyder. Yes. My time is expired.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Again, gentlemen, thank you for joining us today.
    General Metz, I want to go back and talk a little bit about 
JIEDDO funding. And you had spoken about the number of attacks, 
and acknowledging that the threat is growing, alarmingly so, 
and especially here on the home front.
    If you look at the funding you see in 2008 $4.3 billion 
allocated for JIEDDO; in 2009 $3.1 billion; in 2010 $2.1 
billion. As we are seeing the attacks on our troops overseas 
and the worldwide threat growing my question is, why was your 
funding cut almost in half during that period of time?
    General Metz. Sir, I think that that cut reflects the fact 
that we have harvested many of the low-hanging fruit efforts. 
For example, pushing the enemy off of radio-controlled arming 
and initiation devices in Iraq was a very expensive effort to 
proliferate those jammers--develop them, ensure that they were 
interoperable, get them to the force--that was a huge amount of 
money, in a couple of those years close to $1 billion. Now that 
we have that technology and we have that capability there was 
no need for a continued funding line for that particular 
initiative, the remote control improvised explosive device 
(CREW) initiative.
    Also, many of the material solutions that were expensive 
have been invested in and are being used. It is interesting to 
me, and it may be counterintuitive to many, but many of the 
non-material solutions are not as expensive, yet they have been 
able to allow us to aggressively attack the networks and 
actually cost us less. And so over time we are working on some 
very, very hard physics problems, but that investment has not 
required as much money.
    So I think the energy and the focus is absolutely still 
there, but we have been able to maintain the pace of what we do 
in defeating the device, attacking the network, and training 
the force with less funds. And we want to be prudent with those 
funds, and we do not want to ask for more than would be wise 
for us to use in fighting the IED at the level we think we can.
    Mr. Wittman. Thank you. I wanted to ask you a little bit 
about things going on in Afghanistan. We are looking at the 
rates of attacks going up; we are also looking at an increase 
in lethality of those attacks. Can you give me some indication 
about that, and then what are we doing to reverse those trends?
    General Metz. Well, certainly as we--as over the past year 
we have pushed more soldiers and Marines into Afghanistan and 
into places where we had not been before the enemy was ready 
with a very thick array of IEDs, and so those soldiers or 
Marines ran into those IEDs and it was what we predicted.
    I think we are seeing that the enemy is having a difficult 
time replacing those IEDs, and that the fight is on, and I am 
confident in the training and capabilities of those forces to 
continue to manage the level and begin to bring it down as they 
become accustomed to worked, especially in Regional Command 
(RC) South.
    We have seen the enemy--and this is warfare--he looks at 
the solutions we have put on the battlefield, and he works to 
counter those. And he has really upped the total volume and 
explosive power of his IEDs, and that is probably the main 
trend that I would report to you in Afghanistan, is that his 
increased size of his IED increases its--well, obviously its 
lethality, and then challenges some of the solutions we had, 
mainly the Mine Resistant Ambush Protected Vehicle (MRAP) and 
MRAP-like vehicles that we bought in order to protect our 
troops.
    Mr. Wittman. One last question: I was impressed when I 
visited COIC about the efforts to get information back to the 
front in real time. And when I visited there obviously the 
focus was on Iraq.
    Now with this growing threat of lethality in Afghanistan my 
question is, are you able to communicate as effectively with 
our Combatant Commands (COCOMs) in Afghanistan as you were in 
Iraq? And are you able to support the troops at the same level 
as we have supported them in Iraq?
    General Metz. The only thing that limits us duplicating our 
effort in--well, there are several things--in Iraq and 
Afghanistan with the COIC, there are some outlying operation 
bases that may not have a secure internet protocol router 
network (SIPRNET) to them and may have limited bandwidth. That 
would cause us some difficulty to get the information out. But 
at the headquarters level I think that we have got the full 
capability and bandwidth to get the information there.
    What is really different in the two theaters is that over 
time in Iraq, as we were experiencing 1,500, 2,500 IEDs a month 
and finding and clearing half of them we were gaining an 
enormous amount of forensics and biometrics information. We use 
that in the COIC to our advantage; it is our asymmetric 
advantage, as you witnessed.
    The IED was not an important--was not a well-used and 
important weapons system for many years in Afghanistan. We have 
seen that increase and we are--just like Iraq we are finding 
and clearing about half of the IEDs.
    We will continue to build the data on Afghanistan but it is 
just less now. And over time I am confident that our great tool 
of the COIC will be ever more important to the commanders in 
Afghanistan. In fact, I have got the director of the COIC here 
who is just back from Afghanistan, and we have kept that flow 
of leadership to ensure that we are as up to date as possible 
with the needs of the commanders in Afghanistan and we meet 
their request for support in what we call the latest time of 
value, just as we did in Iraq.
    Mr. Wittman. Thank you, General Metz. We are going to move 
on to Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And General Metz, thank you for your lifetime of service. 
You know, it is so easy, sometimes, to forget the incredible 
sacrifice that all of the people in uniform make, but when a 
person gets stars on their shoulders it really reflects a 
profound contribution to human freedom, and thank you very 
much.
    And I know that your success at JIEDDO has direct results 
on the ground in counted and saved lives, so it is a big job 
that you do. I also know that the IED is at once simple and 
monstrously complex, and with an adaptable enemy that is always 
changing things and looking at what we do, and it is a very, 
very difficult thing to handle.
    How do you stay ahead of this adaptability that the enemy 
has? How do you keep trying to get ahead of them and what is 
your mechanism to do that? It is sort of an ethereal question, 
I guess, but what methods do you employ to try to stay one step 
ahead of them?
    General Metz. Well, certainly one method is to collect the 
data and work hard at developing the metrics so we can 
understand not just the inputs that we have done in this 
organization and not just the outputs, but what are the 
outcomes that we are producing? And the only way to really know 
that is to spend time in the theater.
    As a three-star I will cost a lot of time and energy, so I 
limit my trips to twice a year. My sergeant major that is with 
me today, as I mentioned Mr. Larkin and others, spend time in 
the theater so we can ensure that we are connected with the 
commanders and understand what their problems are and what they 
see coming.
    On the other hand, back here inside of the Washington area, 
inside my headquarters we have created what we call the 
Competitive Strategies Group. I am a firm believer from my 
career that you must look at yourself through the enemies' 
eyes, and that is a well-defined program called red teaming.
    And my competitive strategies effort is red teaming and 
more; in addition to red team efforts we include a technical 
gaming staff that are looking at the technologies that are 
available to the enemy that he could use. So each initiative is 
bounced against the red team and the technical gaming team to 
ensure we understand what the counters are going to be and 
begin already to develop the counter to the counter.
    Mr. Franks. Yes.
    General Metz. This is, I think, absolutely critical in 
today's warfare because there are not just good guys and bad 
guys on the battlefield. There is an enormous domain in 
between. And it is a cultural domain, it is a social domain, it 
is a technical domain, and you need to understand that.
    For example, when I was visiting U.S. Pacific Command 
(PACOM) I stressed to them that the telecommunications industry 
is not going to go into an austere environment and put copper 
cables and plug into my belt. The telecommunications industry--
and it may be Asian--will put in the very best that they can to 
make money. And we need to understand those systems and be able 
to compete and operate inside those systems because the enemy 
is.
    Mr. Franks. Yes, sir.
    General Metz. And so for that reason, inside my 
organization the Competitive Strategies Group, in a tight link 
with what is going on in the theater and understanding the 
commanders' concerns about the future, helps us do what you ask 
us to do.
    Mr. Franks. Well, General, I also read in an article just 
recently that it discussed how your--how JIEDDO is expanding 
its role to include examining the broad networks of insurgents 
necessary to sustain an IED campaign, like, you know, the 
people who finance it, and the couriers, and those who ferry 
the explosives, the bomb assembly technicians, all of the--sort 
of the upstream. And, you know, in Iraq, Iran was providing a 
lot of the explosive formed penetrators (EFPs), and they were 
some of the really most dangerous ones that we were facing.
    So I guess my question is twofold. I know some criticism 
has come that says this perhaps diverts you from your primary 
purpose, but it occurs to me that if you can prevent the source 
and the advancement of some of these it is a very wise thing. 
So I would like for you to touch on that and also tell us what 
role Iran continues to play in any IED or explosive formed 
penetrator supply in Afghanistan.
    General Metz. The first part of your question, I would tell 
you that we--I apologize, sir. I have concentrated on the 
Iranian part too much and----
    Mr. Franks. No, that is all right. Just the fact that I 
know that you have expanded JIEDDO recently, or at least the 
indications are that puts kind of verbal responsibility on 
getting to the sources.
    General Metz. Well, sir, the term that we would use in my 
organization would be ``left of boom.'' We spend a lot of time 
initially working to defeat the device and give the soldiers, 
sailors, airmen, and Marines the protection that they 
rightfully deserve if they got inside that explosion.
    We are constantly working more and more left of boom, and 
that gets into attacking the networks. That gets into getting 
involved in the financing of them, the supplies, the techniques 
of how the bomb is made and emplaced, and in some cases very 
unique arming and triggering devices.
    We work that because the payoff is enormous to work 
yourself left of boom because what you are essentially doing is 
not just attacking an almost infinite array of ways to present 
the bomb and arm it and ignite it, but you are moving upstream 
so that you can get a bigger bang for your buck.
    And we really do--as I have mentioned before, those non-
material solutions to attack the network are paying significant 
dividends, all the way back to working with Commerce, Justice, 
and Treasury, and finding those that either inadvertently or 
directly are supplying the components to our enemies.
    Most of that that I would like to talk about Iran I think 
we need to take to a closed session, or I can answer in a 
classified for the record. But we do, because of the lethality 
of the EFP, look very closely at where it may be coming from. 
Fortunately we have seen only what we think are homemade 
platter-charged kind of directional attacks in Afghanistan and 
have not seen the very sophisticated EFPs that we saw in Iraq, 
and the ones in Iraq have dropped in effectiveness. And so I 
think that the close link that we did see, there is some 
problem there, and fortunately our troops aren't facing the 
very lethal EFPs that we faced a couple years ago.
    Mr. Franks. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Rogers for five minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Last year I went down to Alabama, and we had a field 
hearing, and they showed us where the Marines were using off-
leash canine assets that they had deployed to Iraq, and I 
understand they have 18 of these teams, and not one of those 
teams has suffered a loss that is using those. Are you familiar 
with that technology?
    General Metz. Yes, sir.
    Mr. Rogers. Is it limited in what it is useful for or is it 
something we could expand? Because when they showed them to us 
the dogs went out ahead of the convoy, and they meandered 
around the road, and they were just great.
    General Metz. Yes, sir. I have seen likewise. I visited the 
Army's maneuver support center at Fort Leavenworth, Kansas, and 
they are working an initiative for off-leash dogs.
    I think that the combatant--I mean, the commanders know 
this capability. If they want more of this capability I think 
that that would come to us--maybe not directly to JIEDDO, but 
the joint urgent operational need that they would submit for 
more canine support would arrive at the Joint Staff and be 
validated, and OSD may not give it to us but may turn that 
joint urgent operational need to the services.
    But I do know of the capability. I do know of the success. 
And I am confident that the commanders know of it, so I think 
that we are on top of that one.
    Mr. Rogers. Great. Thank you.
    That is all I have, Mr. Chairman.
    Dr. Snyder. Mr. Hunter for five minutes.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen, first off for what you do and what 
JIEDDO is doing. You are saving lives, and that is the most 
important thing.
    My problem is this: If the President came to you today or 
Secretary Gates came to you today and said, ``I want you to 
mobilize right now. I don't want one more IED dug into the 
ground, buried, between Helmand and Nangarhar, as of one week 
from today not a single IED to be dug in,'' and you were to 
mobilize America's industrial base, our contractor base, all 
the former Special Forces (SF) guys that are now doing 
contractor stuff for us and doing it really well--basically, if 
you were to mobilize this country to stop what is the number 
one way that the enemy is taking American lives right now, you 
could do it. We would not have another IED buried.
    And what I have seen is as the intelligence, surveillance, 
and reconnaissance (ISR) exponentially increases and gets sent 
over to Afghanistan, as the money spent in JIEDDO goes up and 
up and up, and as we have great programs--and they are great 
programs, and I am looking forward to all of them coming to 
fruition--the numbers of assets, the numbers of programs, and 
the dollars spent is almost in an inverse proportion to the IED 
deaths in Afghanistan, meaning the more money JIEDDO gets, the 
more ISR--and the ISR, as you know, has gone up at 100 percent 
in Afghanistan over the last year, and it is going to go up 
more--so have our American deaths due to IEDs. There is no 
correlation right now between money spent, programs, or ISR in 
theater, so what we are missing is the execution.
    And what I don't understand is this: You have one window--
when you talk about getting left of that boom, you have one 
window to catch an IED emplacer, when he is bigger than the 
IED. When I was in Fallujah in 2004 things were going crazy, 
you had guys using backhoes to dig in holes to put 155 shells 
in; it took like 4 or 5 hours.
    So we let guys use backhoes--enemy terrorists use backhoes 
in our area of operation (AO) because we didn't have eyes in 
the sky watching the roads 24/7. The only window of opportunity 
that you have is when they are emplacing the IEDs. You can 
attack the network, go after finances, and everything else, but 
the window where you see them putting it in, that is when you 
can kill them.
    And if the President came to you tomorrow and said, ``I 
don't want one more IED dug in. You need to watch every road 
24/7 where our operations are,'' and that is a very small area. 
I have seen the maps where all the IED hits are. It is a very 
small area. It is under 100 clicks [kilometers] if you want to 
put it all together where 90 percent of the IEDs go off--100-
click area.
    So my question is, what are we doing tomorrow--what are you 
going to implement tomorrow to make sure that no more IEDs go--
and once more, all the different programs that we have had, 
that JIEDDO does, I have been briefed on them. They are all 
fantastic--Project Liberty, Task Force Observe, Detect, 
Identify, and Neutralize (ODIN), everything is going in, and it 
is going to be set up at some point in the near future. We have 
been being told that since I got into office in January, ``It 
is going to be there soon, sir. It is going to be there soon. 
It is going to be there soon.''
    It isn't there now, and we are losing guys every day. So 
what are we going to do tomorrow to defeat IEDs so that we 
don't have any more IED deaths? Where is the Task Force ODIN of 
Afghanistan?
    General Metz. Sir, please let me take that. And first of 
all, I want to thank you for initiating your efforts. We are 
recognizing that is that indeed the loss of life that is the 
bottom line metric, and it is those lives and those limbs and 
serious burns and eyesight that I work to try to prevent every 
day because I think they indeed map to the strategic influence 
that the IED is having on us.
    We are an enabling organization. We answer those needs from 
the commanders. We look for the gaps and seams that we can help 
them fill. And we fan out across industry and academia and the 
federal labs, the federally-funded research corporations to 
find those solutions.
    We do our very best to get them there, but the commanders 
use those tools to fight their fight. And as you very 
accurately describe, Task Force ODIN-like efforts really have 
an impact on the enemy. And I think that one of the things that 
we do via the COIC is to show them where those hot spots are, 
where the enemy is concentrating, and help the commanders 
concentrate their own ISR capability.
    Just this morning I left two days--the third day of a 
technical outreach conference where we are indeed tapping the 
capabilities of the country to look at the transportation 
networks and work to give those route clearance companies and 
the land owner commander the capabilities to keep those roads 
and transportation means free of IEDs. I may not go as far with 
you as just 100 kilometers are important, but you are right, 
there are hot spots we need to focus on, and we work hard to 
guide the commanders to that.
    But having been a commander, I am not going to try to 
become the 12,000-mile screwdriver. I am going to give them 
every capability I can. I want to stay in touch with them. They 
have got a very tough fight to fight.
    I think we can do more, and that was one of the things that 
I was working with industry this week on. We will work with 
anybody I can to improve the capability.
    I think there is--we have got some excellent potential 
ideas, as you have mentioned, and particular initiatives. We 
need to net those together. We need to help the commander with 
the architecture that brings them together. And, sir, you make 
great points, and we will continue to work hard to meet your 
points.
    Mr. Hunter. Thank you, General, for your service.
    And Sergeant Major, great to see you. Thank you for being 
here.
    Thank you, Mr. Chairman.
    I would just like to bring up one more thing--I thank you 
for that. There is an article here about the Marines in Helmand 
15 in particular. I will just read from it: ``But some of the 
Marines operating in Afghanistan's Helmand Province say they 
have only seen one part of their drones in the past two or 
three months, leaving the fight against IEDs largely in the 
hands of ground troops.'' This article came out today--NPR 
article.
    The Marines frequently patrol with handheld minesweepers, a 
version of what people use on a beach to find coins. General 
Mickelson says his best weapons against the bombs is what he 
calls the mark-one eyeball--that is Marines being over there, 
soldiers being over there, being there for six months, noticing 
that strange carcass that wasn't there yesterday is shaped 
funny with red wire coming out of it, that is the IED.
    This doesn't make me feel really comfortable that we are 
truly doing everything that we can right now. Once more, if 
Secretary Gates said, ``No more IEDs to be buried''--I 
understand that there are tons in the ground right now in 
Afghanistan, and they could be turned on like that at any point 
in time--but we could do that. We could stop IEDs from being 
buried if we mobilized to do it.
    And we want to talk politically about this war too--it 
would fall off the map if nobody was dying. Iraq is not in the 
paper anymore because nobody is dying. One reason is we have 
knocked off IEDs huge in 2007 and 2008 with ODIN by killing 
over 3,000 IED-emplacers.
    Project ODIN, with IEDs, killed more people than every 
single other person in Iraq put together with all the offensive 
operations--ODIN killed more, and they were all bad guys, not 
one single civilian. They were all inputting an IED.
    If we can do that--and we have done it--I don't understand 
the stopping point--and you are truly the only organization 
whose only mission is to stop IEDs. So I understand we don't 
want to meddle with what those ground commanders want to do, 
but it is only you. The buck has to stop with you because we 
don't have anybody else; there is no other IED defeat 
organization in Washington or anywhere else in the U.S. 
Government that I know of whose sole mission is to stop IEDs.
    And Congress--we will give you anything, and we have, I 
think--billions upon billions of dollars, as much manpower as 
you want, anything that you need. I just think we could do 
more. And if we have to say, ``You are using the assets wrong, 
General Whoever, you are using the assets wrong. We are going 
to go in with an ODIN.'' And one of the things about ODIN, too, 
it was ODIN--it was purely for IED defeat. We don't have that 
in Afghanistan, meaning other ground commanders can task out 
those ISR assets that you send over there purely for IED 
defeat, they can put those into kinetic operation oversight so 
they can have them watching ops. Whereas you could step in 
maybe--I don't know how this chain works--you could step in and 
say, ``This is here and we are going to take back the roads in 
Afghanistan. That is our number one mission.''
    That is the number one killer of Americans right now and 
maiming of Americans right now in coalition forces. It is IEDs. 
It is all IEDs. So let us just stop them.
    Why not put 24/7 eyes in the sky? I have been approached by 
contractors--and I know contractors get a bad rap--from all 
over who say, ``For $10 million we can cover 100 clicks of road 
24/7. We need night vision goggles (NVGs) and a satellite (SAT) 
phone. We don't need a one-year project to make all these 
special things so we can intercept phone calls. We need NVGs, 
and we are going to call into the chain of command (COC) and 
say there are guys digging in 155 shells on the corner of Fifth 
and Main,'' because they are there 24/7.
    There are people out there to do it; we have the assets to 
do it; we have C-12s. Shoot, you could use crop dusters.
    I am just not seeing what is stopping us from doing it 
right now, tomorrow, going out there and saying, ``Let us stop 
them. Let us really stop them.''
    Anyway, thank you, Mr. Chairman. That is all I have.
    Dr. Snyder. Thank you, Mr. Hunter.
    You see, gentlemen, I think--here is the issue that we 
have, and it is why I was reading through Mr. Solis' cumbersome 
language, and that is what the Congress and the American people 
think is what is motivating you all, it is what the American 
people want us to work on is what Mr. Hunter is talking about. 
The concern of this subcommittee for the last 18 months or so 
is that we think there are some things going on within the 
processes of government that may be interfering with our 
ability to do exactly what Mr. Hunter wants to do.
    And it seems obtuse, it seems convoluted, it seems 
bureaucratic that we are asking these questions, but your guys 
on the ground are not yet satisfied with where they are at 
despite all the efforts and the absolute commitment I know that 
you all have to doing this.
    So General Metz, I will give you a chance to respond to 
anything that Mr. Hunter said. And then I am going to go back 
to the laborious nature of reading the GAO criticisms because I 
think that the only way we get to where Mr. Hunter wants to be 
is we have got to be sure everything is functioning as well as 
it can be in lines of authority, in funding streams. And that 
is how human beings get things done is to be as efficient as 
they can be so that the ultimate, you know, final product is 
what they want it to be.
    So, General Metz, is there any response you have to Mr. 
Hunter----
    General Metz. The main thing I would like to respond to 
Congressman Hunter's comments and just underline his accuracy 
with the fact that the soldier, Marines, sailor, and airmen's 
vision and sense is still the best sensor on the battlefield, 
and that tells me that the more realistic training we can give 
them the better they will be at this business. So it does give 
us the opportunity to underline the value of realistic 
training.
    I think it also gives us the opportunity to underline the 
need to help the commanders understand how they can fuse their 
information, use the ISR, the abundance that we are trying to 
push there, to better focus it and better use the assets, and 
then when they need more assets we need to supply them. But 
those are the main comments and----
    Dr. Snyder. One specific question with regard to Mr. 
Hunter's comments: You all define IED much broader than just 
things getting buried in the ground, correct? You include 
things strapped on to suicide bombers, car bombs, things thrown 
from windows, I mean things----
    General Metz. Yes, sir.
    Dr. Snyder [continuing]. I mean, in fact the September 11th 
attack was an improvised explosive device. I mean----
    General Metz. Yes, sir.
    Dr. Snyder [continuing]. It is much broader than that.
    All right, back to the GAO comments, General Metz, quoting 
now, ``JIEDDO faces difficulties with transitioning joint IED 
defeat initiatives to the military services in part because 
JIEDDO and the services have difficulty resolving the gap 
between JIEDDO's transition timeline and DOD's budget cycle. As 
a result the services are mainly funding initiatives with 
supplemental appropriations rather than their base budget. 
Continuing to fund transferred initiatives with supplemental 
appropriations does not ensure funding availability for those 
initiatives in future years, since these appropriations are not 
necessarily renewed from one year to the next.''
    What are your comments on that?
    General Metz. Sir, there----
    Dr. Snyder. And this is a topic we talked about last year 
also.
    General Metz. Yes, sir. And because we talked about it last 
year it has been up front and one that I have worked closely 
with men and women I have known my whole career.
    We were set up in order to work inside that very quick 
trade space probably inside two years. Now, having said that, 
we do spend some money, and we do look forward to some 
technical efforts that we could pull forward, but basically I 
want JIEDDO to be in the trade space of helping warfighters.
    And as you do that there will be, I think, a natural 
friction between the services who are operating in the normal 
budget cycle and we that are operating with the tremendous 
resources that the Congress has given us. But I believe that 
the process is maturing, and we are dampening out the problems 
of the services because they know what we are working on, they 
know as we do the operational assessments the initiatives that 
are looking good and may come to them.
    Dr. Snyder. But that relates back to the previous 
criticism, though, doesn't it, in my last round, which was that 
GAO says the services lack full visibility. When you say they 
know what you are doing----
    General Metz. Well, sir, I think that we----
    Dr. Snyder. You are trying----
    General Metz [continuing]. There are enough forums that we 
are--that there are not black boxes that no one knows anything 
about but a particular office.
    Dr. Snyder. Let me go to this next one. This transition 
also is hindered when service requirements are not fully 
considered during the development of joint funded counter-IED 
initiatives, as evidenced by two counter-IED jamming systems. 
As a result, JIEDDO may be investing in counter-IED solutions 
that do not fully meet existing service requirements. What is 
your comment about that GAO criticism?
    General Metz. Well, sir, it was interesting when I took 
over from General Meiggs, he said, ``The good part about your 
tenure is you are going to be out of the jamming business.'' 
The problem is the enemy votes, and the enemy has stayed 
adaptive in his use of the electromagnetic spectrum. So 
although we thought we had done enough in the jamming business 
that it would then transition to the services, we needed to 
stay in the jamming business because the enemy decided to move 
to different frequencies and make things more complex.
    I recognize that this was a friction point between us and 
the services, and so I went to my experiences, and I went to 
General Cartwright, the Vice Chairman, and said, ``I think this 
needs to be a Joint Requirements Oversight Council issue.'' A 
little over a year ago we took it to that process, came out 
with clear definitions of what we would do, what the single 
manager--the Navy as a single manager for electronic warfare 
(EW) would do, and what the services would do.
    But the enemy keeps voting, and we keep having to keep up, 
and we think we are the organization that needs to watch the 
threat. And as needed, we need to offer the technical updates. 
The services will continue and should continue to define their 
requirements out into their programs. There has been friction 
but I think it, especially in the CREW, is beginning to dampen 
out, and we are really understanding where these programs are 
and how they have messed with each other.
    Dr. Snyder. Mr. Wittman for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Metz, I think what you are hearing today is just--
is concern about coordination of efforts, effective 
communication, and I know that it is a very complex process. 
There are lots of things going on and timing this is of the 
issue there.
    My question goes back to I guess the synthesis of what you 
are hearing today from Mr. Hunter and Chairman Snyder. You 
know, Mr. Hunter is, I think, bringing up a great point about 
how do you really get assets to the field that our warfighters 
would be effective to them, looking at that in an application 
setting, also some of the criticisms brought up by the GAO.
    Is there a way that you can bring all those things 
together? And secondly, is it an issue--and I may have asked 
this question a little bit earlier--is it an issue of 
resources? Is it an issue of--and when I say resources I am 
talking about dollars--or is it an issue of human resources? Is 
it an issue of trying to coordinate things in a more timely 
fashion and make sure that you have those internal controls 
there? You are also looking externally, you are getting that 
information from the warfighters, from the combatant commanders 
in a way that you can get to the point like Mr. Hunter brings 
up and get out there and try to provide the assets to find 
these folks that are placing these IEDs, in addition to, 
obviously, other threats that are out there?
    Is it an issue of resources or placement of those 
resources? Can you give us an idea about how you would 
collectively respond to, I think, some of the things that are 
coming up here?
    General Metz. My first comment is that as I see the plans 
of Fiscal Year 2010 and the plans for 2011 I don't think that 
it is an issue of resources. I think it is the complexity of 
being able to put the architecture in place and put the 
sensors, the training, the entire complex spectrum of things 
that have to be done to really focus the force on what is the 
most strategic problem, which is the IED.
    Having said that, the commanders in the field are facing 
the complexities of fighting a counterinsurgency battle inside 
of which the IED has probably most significantly limited their 
ability to work with the population and the mobility, and so 
counter-IED----
    And General McChrystal clearly expressed to me his 
understanding that we have got to fight the IED when I visited 
him in June. I think what we have got to do is continue to use 
the resources that come together in the Joint IED Defeat 
Organization to do just as Congressman Hunter says, focus the 
effort so that that focus turns out to reduce the loss of life. 
You map that back to the--you force the enemy to have less 
wherewithal, less supplies, less money to do it.
    Congressman Hunter is right--the last time you really get 
to affect it is when he is putting it in. And so commanders 
make decisions whether or not they kill the person putting it 
in, which they have got the rules of engagement to do, or they 
follow him to understand his leadership or understand where his 
cache is, or understand where the bomb maker is. So we can help 
in that because we can sit back in the comfort of--and the 
protection of where we are and work for the commanders to help 
them produce the net-centric capability that I think our Nation 
can offer to fight this weapons system.
    Mr. Wittman. One follow-up: How capable is JIEDDO of 
responding to suggestions from our warfighters and combatant 
commanders that may be outside of what--the stock set of 
conditions that we have been used to dealing with? So in other 
words, if somebody came up and said, ``Hey, why don't we do 
this?'' and it is something outside of what we normally look at 
about countering these devices, jamming them, trying to stop 
their placement, I just want to make sure that that 
adaptability and flexibility is there within JIEDDO.
    So if you have something that is sort of outside the box it 
can be incorporated or is at least looked at with an open mind 
to say, ``Yes, maybe that is something we haven't thought of. 
We ought to incorporate that in our thought about how we look 
at the overall threat.'' How capable is JIEDDO of considering 
those suggestions and then putting them into place as far as 
defeat measures?
    General Metz. Sir, I think that that is one of our real 
strengths. We have enough expertise now, having a couple years 
at it, to understand what has worked and what has not worked. 
And I think the passion and sense of urgency that my workforce 
has, we are constantly seeking those new and good ideas.
    Having said that, there are some that come to us with to 
them what is a new and good idea that we have tried before. So 
I think we have got a good pulse of the technology that will 
work and we need to pursue.
    But as I mentioned before, much of the low-hanging fruit 
has been harvested so we are left with some real tough physics 
problems. In order to build a radar that can look underneath 
the ground as you are traveling 40 miles an hour down the road 
in your MRAP and do it with a low false positive rate in order 
soon enough for you to stop is a tough physics problem. But I 
do think that we--that is what we can offer.
    Now, we also have enough tentacles out in the force to 
understand what their needs are. And the advantage to having 
the Joint IED Defeat Organization is that we can begin to work 
the solutions to the problems they are seeing as the process 
begins to take place.
    We are working in tandem and not in sequence so that we are 
not waiting for everything to come through out of Afghanistan, 
through CENTCOM, to the joint staff and OSD, and finally maybe 
get to us. We know what they need, and we are working on those 
gaps and seams, and we will certainly marry-up the joint urgent 
operational needs statement as it comes, but I think what you 
have touched upon is one of the things I am very proud of the 
organization.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Franks.
    Mr. Franks. Mr. Chairman, I would just like to associate 
myself profoundly with Mr. Hunter's previous comments and yield 
back.
    Dr. Snyder. See, it is easier for us to associate ourselves 
with this Mr. Hunter since he was in the Marine Corps than the 
previous Mr. Hunter since he was an Army Ranger. So I 
associate----
    Mr. Hunter?
    General Metz, continuing the GAO summary questions--by the 
way, I am just reading from kind of their key one. They go in 
quite detailed in some other--quoting again from GAO, 
``JIEDDO's lack of clear criteria for the counter-IED training 
initiatives it will fund has impacted its counter-IED training 
investment decisions. As a result, JIEDDO has funded training 
initiatives that may have primary uses other than defeating 
IEDs.
    ``In March 2009 JIEDDO attempted to update its criteria for 
joint training initiatives by listing new requirements. 
However, these guidelines also could be broadly interpreted. 
Without specific criteria for counter-IED training initiatives, 
DOD may find that it lacks funding for future initiatives more 
directly related to the counter IED mission.''
    That is the end of the GAO comment. Do you have a response 
to that?
    General Metz. First of all, sir, I would say that upon 
arriving at the organization it was clear to me that--and I 
have talked with General Abizaid, and I know him well--that the 
Manhattan-like Project effort, which was initially focused on 
the device that General Meiggs had worked up to ensure that it 
was broad, and we were fighting the networks, and I came with 
the experience that told me I needed to make sure the force was 
trained to do both.
    And I have worked hard to ensure that the Joint Center of 
Excellence out at Fort Irwin, California, and the Services 
Center of Excellence--the Marines, for example--at 29 Palms are 
as aggressively helping the force train as possible.
    And as those training initiatives can be, in my mind, 
linked with winning the IED fight I have been in full support 
of them. And an example would be that realistic training that I 
think we owe our young men and women we have invested in and 
have transferred to the--in the larger case--to the Army and 
the Marine Corps insurgents on the battlefield.
    And in some cases you don't need just a role player; you 
need someone that is technically and culturally educated to the 
position. For example, when a young Marine company commander or 
an Army company commander has got to work with a village, he 
needs to train working with someone that is replicating the 
mayor, the senior imam, the tribal leaders, the police, the 
army, so that he gets that experience before he goes.
    Now, that is not razor sharp focused on counter-IEDs, but 
that training will help him with the network--the fight of the 
IED network in that training environment. So that is one of the 
examples, I think, that we developed insurgents on the 
battlefield and have now handed that off to the Army.
    Does that put a burden on the Army? Yes, sir, it does. And 
the Army has got to decide how much of that insurgent on the 
battlefield funding that they will accommodate.
    Dr. Snyder. Dr. Schear and Mr. Solis, we have let you off 
pretty easy so far this morning.
    But Dr. Schear, we appreciate you being here, and as I 
alluded to briefly in my opening comments, it is our 
understanding that the Defense Department was scrambling a 
little bit to figure exactly who on the civilian side should 
come, that there--was that your impression, I mean, that the 
lines of authority were perhaps not as clear and defined as 
maybe they would like, given how mature the JIEDDO organization 
is now? Do you have any comments on the DOD structure with 
regard to the management and oversight of JIEDDO?
    Dr. Schear. Sir, you raised a fair question. Oversight is a 
challenge because of how broadly this effort draws from almost 
every stakeholder constituency in this Department, from the 
acquisition community to the intel community, policy community, 
cost and program evaluation communities. That is, in part, the 
reason why this effort plugs in at such a high level.
    Now, there is a span of control challenge for our deputy, 
and even farther down the echelon. The problem we face is that 
if the oversight plugs in at a lower level than we have 
fractionated oversight, and there is a cost associated with 
working those problems out.
    So, sir, in particular response to your question, I don't 
think there was an issue about identifying the individuals 
involved; it was just a question of schedules and here-and-now 
priorities, given other challenges.
    But I obviously cannot carry the full portfolio that Bill 
Lynn would here, as the deputy, and I understand last year we 
offered up a range of views and a very large panel from these 
various constituencies, which probably sort of symbolized how 
broad-gauged this is. But it is a challenge, and I take your 
point.
    Dr. Snyder. Mr. Platts, would you like to be recognized for 
five minutes?
    Mr. Platts. Thank you, Mr. Chairman. No questions, and I 
apologize coming from two other hearings. Challenge of being on 
seven subcommittees right now.
    But I want to just appreciate your efforts and would echo 
the final question there, or the concern about the oversight 
and the management. For four years I had the privilege of 
chairing the Subcommittee on Financial Management and Overall 
Management under Oversight and Government Reform and worked 
closely with GAO, and I know in my years of chairmanship, as we 
worked with agencies and departments, that GAO was often seen 
as an adversary instead of an assistant. And I would encourage 
the Department and all the military, and especially in the 
important mission you have, to really embrace GAO as an ally, 
as they try to use their expertise to improve your operation. 
Because ultimately the beneficiary will be not just the 
taxpayers here at home but the men and women in harm's way. So 
just to encourage that partnering with GAO and their 
recommendations as you go forward.
    So thank you, Mr. Chairman.
    Dr. Snyder. Gentlemen, we have three votes but we will come 
back and have--I don't think we will keep you a long time after 
that, but we do have several more questions. So we are in 
recess.
    [Recess.]
    Dr. Snyder. We will resume here. I think Mr. Wittman will 
be coming back, but----
    I appreciate, men, you waiting.
    Dr. Schear, I wanted to continue the discussion we were 
having about complexity, and on page four, which you read, you 
stated, ``I appreciate how complex this overall structure may 
appear. It is indeed a multifaceted undertaking, and it remains 
a work in progress. JIEDDO expects to publish a revised JCAAMP 
procedure by the end of November and DOD Directive 2000.19E is 
also due for revision in 2010,'' and that was the end of your 
statement.
    That gets to it, doesn't it, I mean, how complex, and we 
are asking a lot out of General Metz and his organization in 
terms of all these different activities. Let us see, how long 
have you had your job now?
    Dr. Schear. Mr. Chairman, I have been in six months.
    Dr. Snyder. Six months.
    Dr. Schear. I consider myself still a newbie, sir.
    Dr. Snyder. Well, that is all right. When you were a 
newbie, what was your understanding at the time of what was to 
be your interaction with JIEDDO and how many times have you and 
General Metz met?
    Dr. Schear. I have had the pleasure to meet General Metz 
several times since I have been--and his staff, most notably a 
day-long deep dive we did a couple of months ago that Vice 
Chairman Cartwright appeared at. And it has been part of the--
within Policy--part of the larger stability operations 
portfolio for some period of time within Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict (ASD 
SOLIC) under ASD Michael Vickers. So it has been a clear 
priority.
    That said, as we have heard here today, sir, it is a very 
complicated portfolio, and it involves, from the policy 
standpoint, some stewardship for Title 10-like capabilities, 
responsibilities in addition to the operation and support. So 
it puts us in an interesting position with the services as well 
as combatant commanders.
    Dr. Snyder. The JIEDDO structure was set up--and General 
Metz talked about it, and I think you talk about it--to kind of 
go around what are perceived as some of the cumbersome 
processes that the normal Pentagon structure was intended to 
help us get things to the warfighter as quickly as possible. 
And this structure does fine when we think it is doing fine.
    Human activities don't always go well. So GAO has made some 
criticisms, Mr. Hunter--perhaps it wasn't a criticism, but it 
was an expectation. So who within the Pentagon organization is 
going to say--you know, the new Duncan Hunter made a very 
passionate view of the perspective of an infantryman on the 
ground that things need to be done better. Who is the point 
person for the President to go to and say, ``We need to do 
better''?
    What is the line of authority? Is it clear to you what the 
line of authority is? Our impression was that it is not, given 
that there was some scrambling around to figure out who to have 
testify today. But I don't think it is clear. What do you 
think, Dr. Schear?
    Dr. Schear. Sir, at the level you are suggesting in your 
hypothetical that would come directly to the Deputy Secretary, 
and at that point we would pull together in a small group and 
decide on a course of action. It would involve----
    Dr. Snyder. This is Mr. Lynn?
    Dr. Schear. Yes. Yes, sir.
    Dr. Snyder. General Metz, how many times have you met with 
Mr. Lynn?
    General Metz. Sir, I meet with Mr. Lynn in a very routine 
way every single month, and I have had additional particular 
subjects--one that comes to mind is the special access 
programs. But we have never missed a monthly update. And so 
since he has been in office I have seen him each month and 
there have been two or three--I can check for the record, but--
times that I have met him on special projects.
    May I engage in this discussion a little bit?
    Dr. Snyder. Sure.
    General Metz. Because I anticipated this question I put 
some thought to it. And as I look back through my career this 
job I have now has more supervision than any that I have ever 
had, and I look at it maybe a different a way, because I plug 
into the Deputy Secretary. If the Joint IED Defeat Organization 
has got a coalition engagement challenge or we want to get some 
disclosure authority or anything in the policy arena, I have 
got oversight from the Under Secretary for Policy and the staff 
that does that business for her, Secretary Flournoy.
    In all of our technical business Acquisition, Technology 
and Logistics (AT&L) helps foster us through that process. Dr. 
Keesee here, my vice director, sits with the Director of 
Defense Research and Engineering (DDR&E) and all of the service 
research and development councils, and therefore that is 
another venue that we get oversight.
    In the intelligence business--we are not an intelligence 
organization. All I am seeking is their IED information, and I 
get plenty of oversight and help from OSD Intelligence and the 
agencies.
    We have had an internal process for the Department of 
Defense advisory working groups. We have had several of those 
meetings focused at JIEDDO's business.
    You know, we are coming up on our fourth birthday and we 
are on our fifth topic in the GAO looking at us. I have used, 
as Congressman Platts suggested to us, I do exactly what he 
suggested. I use these great eyes to help me mature this 
organization in the right way, and when they have been critical 
of our personnel accounting I took that aboard, and I think we 
have got a very robust and accurate accounting of people now. 
We have built out a comptroller organization and developed the 
tracking of the financial expenditures.
    And I can list a number--a long list of all the different 
things, but I think we are well overseen. Nevertheless, we do 
plug into a very high level of the Department, so if the 
President wanted something to happen he would tell the 
Secretary of Defense and the Deputy Secretary of Defense and it 
would come directly to me, and I would execute it, but I would 
have plenty of very senior people watching their pieces of the 
Department as they relate to me.
    Dr. Snyder. My time is up. We will go another round. Let us 
go to Mrs. Davis for five minutes, just joined us, and then we 
will go to Mr. Wittman.
    Mrs. Davis for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you for being here. I am sorry I wasn't able to hear 
the earlier testimony, but I think one of the big questions--
and excuse me if this has already been answered--but how does 
JIEDDO actually measure its effectiveness in achieving its 
mission to defeat the IED?
    General Metz. I will take that down three avenues. One 
avenue would be that we collect for the Department the data 
about IEDs--location, size, switching, kinds of bombs. There is 
a lot of data information that once collected--and of course we 
are somewhat dependent on the theater forward to collect that 
data for us--but we are able then to understand what is 
happening with the IED and associate or--and understand how 
effective our initiative may be.
    An example would be, as the enemy went away from radio-
control devices to command wire, we believe the enemy did that 
in direct response to the fielding of jammers. And so there is 
a whole series of in-theater data that we collect.
    Based on the GAO's earlier report, this metrics effort--we 
took our entire outcomes from each part of the JIEDDO, 
developed what those metrics would be, and I have taken two 
very deep dives quarterly now to look very carefully at those 
metrics. Are we creating the outcomes that we need to be 
creating?
    And the third avenue would be, as we put those initiatives 
into the theater, putting an assessment behind those 
initiatives so we can measure their effectiveness in the 
counter-IED fight.
    So those are, you know, three major ways that we have 
responded to the GAO report to get it metrics, but the metrics 
are very tough for two reasons: We have got a thinking enemy 
who wants to counter us, and we are dependent on the warfighter 
forward to use or not use the initiative we are trying to help 
him with. And so there are a lot of humans in this piece and 
the metrics are indeed difficult to----
    Mrs. Davis. Are there some areas in which you have actually 
been surprised by those results? You know, where you expected 
that you would have certain outcomes which just have not 
materialized, that whatever it is that you are doing just 
hasn't been effective? And how, then--where do you shift in 
that case, then?
    General Metz. I will give an example. We felt that in East 
Baghdad there was a concentrated effort by the enemy to use 
explosively formed projectiles, so we deployed an initiative 
that we thought would focus on those networks. We called it 
FOX. It was a very robust--a number of things from canines to 
soldiers that were trained in detailed tracking.
    We put a lot of assets into the FOX initiative. And it was 
very successful, we think, and we took it to the conclusion 
that as the tremendous off-ramp of IEDs occurred in Iraq, and 
the great reduction of explosively formed projectiles, that we 
didn't need that initiative anymore, and so I was able to 
terminate it.
    I am trying to think of an example where we--one didn't 
turn out as we expected it would turn out. I can tell you that 
there is often a significant delta between the testing 
environment, for example in Yuma Range, and as it turns out in 
Afghanistan or Iraq. Something that can test marginally in 
Yuma, and you take it to the theater and it tests very well.
    Copperhead is a sensor that we have deployed into 
Afghanistan that did not seem--that tested very well in Yuma 
and has had a tough time in Afghanistan. On the other hand, a 
sensor Desert Owl, a very similar technology that will see a 
changed detection, marginally tested in Yuma and has been a 
gangbusters success in Iraq.
    So I think what I am reporting to you is this is a very 
dynamic and often not intuitive business that we are in, and it 
requires a constant alertness to what is happening and being 
able to shift in order to support the warfighter.
    Mrs. Davis. Thank you. And let me just shift for a second 
because I know that on National Public Radio (NPR) there have 
been a series of discussions about this, and I am just--have 
you had a chance to review any of that? Do you think that the 
public is getting the information that they need about this? 
And are there any misperceptions that are out there as a result 
of those reports that you have had to counter?
    General Metz. I have not heard all of them. I participated 
in an interview for that particular program. What I have heard 
is accurate and beneficial to the public.
    I think they are properly articulating the complexity of 
the IED problem, of some of the solutions, and--but I must 
admit I haven't listened to each one of the segments by NPR.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Metz, I want to kind of go back to the whole issue 
of communications and just get your overall candid opinion. 
Looking at the whole system of communications within 
Afghanistan, within Iraq, back and forth, providing information 
based on the IED threats, are there any weaknesses either in 
the communication systems that you see within theater or the 
communication systems that exist within JIEDDO, the COIC, or 
the TCOIC, as far as how information is traded back and forth, 
to make sure that we are, in the best manner possible, getting 
these solutions to the challenges and problems that our 
commanders face in the theater?
    General Metz. Sir, I think that we have good communication, 
and I think it can get better. And one of the things we are 
taking a new look at is our Web site that was kind of our 
premier outlet for information on IEDs. It was managed down at 
Joint Forces Command. I am taking another look at it because I 
think in this quick, dynamic environment we really need to have 
that Web capability that has got the latest deaths, and I am 
taking another look at how it should be managed.
    I am not as concerned about where the servers are located 
or who necessarily the technical people that manage it, but I 
want to make sure that we have a very tight loop between what 
is happening in the theater--and quite frankly around all the 
world and the COCOMs--and what is posted so that our 
warfighters have the very latest and best information. So I am 
taking a look at that capability.
    But nothing comes to mind very quickly that we have got a 
real fault in the overall flow of information and 
communication.
    Mr. Wittman. It was mentioned earlier that in certain areas 
of Afghanistan there is lack of bandwidth, maybe even lack of 
capacity to be able to communicate in some of those remote 
areas there. It seems like to me in those situations, where 
there are certainly challenges there, that that lack of 
communications could certainly have a potential impact on the 
ability of the combatant commanders there to get the things 
they need or to get information back. Do you see that--give me 
your estimate or what you know about the communication system 
there in Afghanistan as it relates to getting information from 
the combatant commanders back through the chain of command back 
to JIEDDO.
    General Metz. As I mentioned earlier, I think that there 
probably are some very small forward operating bases in very 
remote locations that probably have limited bandwidth and some 
limited communication. In those cases I do know that the 
commanders--we work hard to allow them to go in with much of 
the data so that they don't have to get streams of all the 
data, they just need to get the updates. And so there is some 
compression and techniques that are far beyond my information 
technology (IT) background.
    But again, I think as the lessons are learned we are 
plugged in to a deep enough level that we are absorbing them 
and in as quick a fashion as we possibly can get them back. But 
there is no substitute for personally going, and so I go, and 
as I have mentioned Mr. Larkin here, that runs the COIC, has 
spent a lot of time recently in the theater. Sergeant Major 
just got back last night--yesterday--from the theater. So 
keeping the pulse is important, as is the hardware technical 
communication, and I think there is the personal piece that we 
are trying to do too.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Maybe at this point--I have got several other 
questions--but Mr. Solis, you have been very patient there. Any 
comments that you have on anything you have heard, particularly 
about General Metz's response to your report or anything else 
you want to----
    Mr. Solis. I think first off I just want to reiterate, we 
have had a good working relationship with JIEDDO. I mean, I 
think they have been very open and transparent with us, and I 
think they are listening. That being said, I think a number of 
things that you have mentioned in our report and that we were 
reporting today as well as our testimony are significant issues 
that are going to have to be dealt with as JIEDDO goes forward.
    JIEDDO was created because of the growing IED problem in 
Iraq, as everybody has mentioned. That was created back in 
2006, and it was put at the DEPSECDEF level to lead, advocate, 
and coordinate all activities at the Department.
    I think, again, it is important to note that it is not only 
JIEDDO that is doing IED countermeasures. I think if you look 
at some of the programs of record, most notably like MRAP, some 
of these other things that have been brought to the floor 
because of the--problem are not necessarily within the confines 
of JIEDDO, which fits into what we were saying before in terms 
of our very first point.
    In terms of understanding all the different things that the 
Department is doing so that the warfighter, at the end of the 
day, and the Department has assurances that what is being 
fielded is the best in terms of the problem set that is being 
faced by the warfighter out in the field. And I think to 
understand all the different solutions that are out there, all 
the different things that folks are working on in different 
organizations are critical.
    I think the other thing--and you have talked a little bit 
about the transition issues--I think there are close to almost 
500 different initiatives out there. At some point they are 
going to have to be transitioned and funded, and asked for 
funding. If there is still a disconnect between what the 
services want, what the COCOMs want, I think it is going to be 
a problem in terms of transition. And as I pointed out, more of 
these staying with the sustainment under JIEDDO, that is 
potentially less dollars that they may have for other new or 
creative solutions to the problem in the field.
    But I think, again, this is going to take not just JIEDDO. 
It is going to take a Department effort to really address the 
things that we are doing here. And I think it is also 
important--and we haven't talked a lot about 
institutionalization--and I think all these things are 
important to deal with before we think about 
institutionalization of JIEDDO, because I think until these 
issues are dealt with it is going to be very hard for this 
organization to continue in the vein that it is.
    Dr. Snyder. Then you have also made the point if you don't 
deal with institutionalization as we move away from 
supplementals as being a primary funding source for what goes 
on in Afghanistan and Iraq then JIEDDO is at risk of being left 
out somehow. Is that a fair statement?
    Mr. Solis. That is a fair statement. That is a fair 
statement.
    Dr. Snyder. Dr. Schear, you went into some detail about the 
three-tier system, the Joint Resource and Acquisition Board, 
you say JRAB, and then the second part was the Joint Integrated 
Process Team, and then the third, chaired by the Deputy 
Secretary of Defense, the Senior Resource Steering Group 
(SRSG). That is for funding decisions.
    What kind of advisory process, decision process is used for 
decisions other than funding decisions--decisions about what to 
do about a new approach in Afghanistan, decisions about 
organizational structure, discussions of how to respond to GAO? 
Who makes those kinds of--what is the process for decision-
making aside from funding decisions? And maybe I am reading it 
wrong but I think in your statement you very clearly said this 
is the mechanism set up for funding decisions----
    Dr. Schear. Right.
    Dr. Snyder [continuing]. But don't refer to other 
decisions.
    Dr. Schear. You are absolutely right, Chairman. The three-
tiered structure is programmatically focused in on funding. The 
larger corporate issues you have identified work within a small 
leadership group that covers the range of issues that the 
Deputy Secretary, Mr. Lynn, would feed into that, given his 
role as the steward for JIEDDO.
    But that is not a--there is no designated structure--and 
General Metz may correct me if I am wrong on this--but there is 
no corporate structure that provides that focused guidance that 
you are referring to outside the programmatic vein that I 
described.
    Dr. Snyder. General----
    General Metz. Well, as I said a year ago I had the quick 
opportunity to make a decision if I was going to take this job 
or not, and I obviously did. And I think the first thing is 
that the Department looks to me and the experiences I brought 
to this directorship as one that is responsible for the whole 
effort. And therefore, I don't do this effort in a vacuum. And 
I really have the entire Secretary's staff to help me make 
sure.
    So yes, what was articulated were funding decisions. But I 
will give you an example: We realized as we have made our shift 
and focus into Afghanistan that, given a coalition fight, we 
really needed to share the information with the coalition in a 
much more transparent way.
    That required me to go to Dr. Schear's boss, Secretary 
Flournoy, and ask for the disclosure authorities to begin to 
train a contracting officer's technical representative (COTR) 
that can do the disclosures properly in order to release 
information to the coalition. So there was a non-funding 
decision that I had tremendous help from the Secretary's staff 
to allow me to get the job done. And those kind of things, 
outside of the funding, are frequent but it allows me to take 
my experience and not have to bother the Deputy Secretary of 
Defense to go work in action with one of his major staff 
officers.
    They certainly cascade the problem to the level at which 
the work gets done with my staff, but I think we get tremendous 
oversight that way and ensure that we are moving forward in 
those non-financial decisions that have to occur as we do this 
holistic fight.
    Mr. Wittman.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I thought perhaps you had dealt with this issue, but maybe 
not. Could you help us understand, where are you in terms of 
interagency work and coordination on these issues? How many 
other agencies are involved? Where is there a lack of that 
involvement where there should be? What can you tell us that 
can push this further on?
    General Metz. Well, let me use a couple examples. One 
example would be, we help chair a supply chain working group 
for the purposes of understanding with all the forensics 
information we get out of IEDs that we find and clear, and so 
we bring together much of the interagency--for sure Commerce, 
Justice, and Treasury--in order to take that forensics 
information----
    Mrs. Davis. Department of Homeland Security? FBI?
    General Metz. Yes, ma'am. And inside of the organizations 
like the Counter-IED Operations Integrations Center there is a 
long list of liaison officers that the interagency has given us 
to ensure that we are in sync with many of the activities that 
they are doing.
    Mrs. Davis. Is there an area that, you know, you have been 
a little frustrated feeling that we need to bring them along to 
a greater extent, or some piece of this that----
    General Metz. My initial reaction----
    Mrs. Davis [continuing]. Where there is so much duplication 
it is not helpful?
    General Metz. Well, I think my initial reaction is not only 
in the Department of Defense but across the government the IED 
is recognized as that weapons system of choice of the enemy 
now. They recognize its strategic impact and we have good 
coordination.
    Homeland Security is very concerned about the IED in the 
homeland. They know that we are the nexus of information about 
the IED. We use U.S. Northern Command (NORTHCOM) as our 
military link back into Homeland Security, but we work closely 
with a number--with FBI because they are doing some of that 
forensics, tearing down and allowing that to be evidential data 
and information. So we are close to a number of the 
interagency, and to my knowledge it is a pretty smooth, good 
working relationship.
    Mrs. Davis. Dr. Schear, do you agree?
    Dr. Schear. Yes, ma'am, very much. We have heard good 
things about the give and take, especially on the Homeland 
Security side, and now that is actually a very explicitly 
stated concern in terms of the DOD directive and how that 
apportions responsibility to the Under Secretary of Defense for 
Policy. So the link to Homeland Security is very----
    Mrs. Davis. And you think it has improved--by what degree 
would you say it has improved?
    Dr. Schear. Ma'am, I am not in a position to give you a 
good answer on that, but I would be happy to take that and 
provide a response.
    [The information referred to can be found in the Appendix 
beginning on page 93.]
    Mrs. Davis. Okay.
    Mr. Solis, would you----
    Mr. Solis. We haven't looked at that issue. We are aware 
that there are interagency efforts going on but we have not 
looked at that as of yet.
    Mrs. Davis. Yes, okay. Great. Thank you.
    Is there any area in terms of rapid acquisition that you 
feel you don't have the authority to move forward?
    General Metz. No, ma'am. I think that the DOD Directive 
2000.19E that governs us, and as we hope to update it in 2010, 
we have the authorities we need to support the warfighter in a 
very rapid way. As the GAO has indicated, we are not perfect. 
We can learn; we can get better.
    But I think that especially in the use of the funds that 
the Congress has given us to rapidly produce solutions we are 
getting pretty good at that. We have gained a lot of 
experience.
    It is keeping that workforce passionate is one of the 
leadership challenges I have got, to have a sense of urgency. 
We have got to get this done. And that is my challenge as a 
leader to do.
    Mrs. Davis. Thank you very much. I appreciate that because, 
you know, we can talk here about the physics of it but the 
reality is to thousands of families and our men and women 
serving in theater this is very personal.
    Thank you.
    Dr. Snyder. Mr. Solis mentioned at some point the 
institutionalization of some of these activities and at some 
point within the budget structure of your whole process or 
organization, General Metz.
    Dr. Schear, your last sentence in your written statement 
is: We look forward to working closely with your committee and 
with Congress more generally to develop ``an enduring 
structure,'' which is yet undefined.
    Let me ask both you, General Metz, as at some point we will 
be leaving this duty, what is your advice as we look forward to 
what the enduring structure should be for JIEDDO?
    And any comment, Dr. Schear, that you might have, too.
    General Metz. Sir, in the almost two years I have been the 
director it has become very clear to me that the weapon of 
choice of the violent extremists is the IED and will remain the 
IED for some time. I think that we need to continue to work to 
develop the Joint IED Defeat Organization as a permanent 
organization. I think that the amount of funding will 
certainly, as Congressman Wittman brought up, will go down 
somewhat because we have harvested the low-hanging fruit, but 
we will still need to be able to react to the changes the enemy 
makes and work hard to move into that domain of being proactive 
instead of reactive.
    I think the size of the organization is heavily dependent 
on the number of initiatives we have out and the pace at which 
we are doing business. So as that ebbs and flows over the next 
decade or so we will be able to reduce the numbers of people 
based on the energy and efforts that we have.
    But because the threat is--I don't think is going to go 
away, and because we will want--in my opinion we will want to 
deter it in other combatant commander areas, we should 
institutionalize and make permanent for the Department, and 
then that would call upon us to place in the base budget 
funding for those enduring things and then recognize that there 
will be operational needs that will come with inside the budget 
cycle. And there will be some historical knowledge, and it will 
dampen out to a more and more accurate figure over time. But 
there will be those things that occur on short notice that we 
will need to be able to react to.
    But I just see the enduring nature of the threat and the 
need to counter that and bring the Department together in a 
joint way for joint solutions.
    Dr. Snyder. Dr. Schear.
    Dr. Schear. Sir, I would strongly subscribe and support--
subscribe to and support what General Metz has just said. One 
of the big challenges in any transition--institutional one--is 
to maintain that sense of urgency. We don't want to simply rely 
on the enemy to convey that; we want to be anticipatory and 
look ahead where we need to be, you know, making our 
investments.
    My leadership would certainly want to look holistically at 
this to take the insights that our senior officers who have 
been directly involved in JIEDDO could bring to this as well as 
our combatant commanders to assess, collectively, their input 
as we chart a way ahead. It is a challenge.
    Advocacy organizations convey urgency; they are also a 
constructive irritant in the larger system, which I think is 
valuable. But how you sustain that over time is an open 
question, and we would certainly seek opportunities to draw in 
your views and comments as we proceed.
    Dr. Snyder. Isn't the goal of having an enduring structure 
to guarantee that all the good things that we want to have done 
will continue so you have the agility to respond, but we want 
to do it in such a way that you have--you know you are going to 
have a funding stream, you don't depend on supplementals, that 
there is the appropriate oversight when things go wrong? But 
because we talk about an enduring structure doesn't mean that 
somehow it has to take on kind of all the dark side of what we 
think about when we think about government funding streams or 
government approval processes, or one of your words, 
cumbersome.
    I mean, we want to maintain your agility but have the good 
things that come from being part of a more institutionalized 
structure. Isn't that the goal?
    General Metz. Absolutely, sir. I think we--again, as we 
approach our fourth birthday we have learned a lot, and I think 
a year from now and four years from now we will have learned 
more, we will have continued to mature and settle in, but 
settle in--as I talk with my workforce, settle in for a 
marathon run but not settle in for being a slow, bureaucratic, 
not responsive to the warfighter.
    We have got to settle in for the marathon because I think 
it is a long fight against IEDs in a world that is going to 
have a lot of instability, but settle in to understand what are 
the techniques that can really move an idea to the warfighter 
in a rapid way and be transparent with the Congress and with 
everybody involved--except the enemy--and ensure that we all 
understand how we are moving and the value of that quick 
movement against a very agile enemy.
    Dr. Snyder. Mr. Wittman, I have used another five minutes--
--
    One of the comments, General Metz, in your written 
statement you say no one could have anticipated the sheer 
amount and complexity of the training required to successfully 
counter IEDs. I always get a little bit jumpy when I hear 
someone say ``no one could have anticipated.'' It takes me back 
to when the 9/11 Commission issued their report and in their--a 
lot of the public discussion that went on after they issued 
their report, the phrase ``a failure of imagination.'' A 
failure of imagination that anyone could have--no one could 
have foreseen this.
    In fact, Floyd Spence, who is now dead, and I mean for 
months before he was, here in our committee hearings, was 
saying, ``This can happen right now.'' Now, he didn't say there 
were going to be people in the airline pilot programs and they 
were going to get on planes and hijack them, but he was very 
much a believer that we were at risk as a country right then.
    And in fact, I suspect we could find people who could have 
anticipated that. I mean, we have had wars for a long time in 
which people have had improvised devices, whether it is punji 
sticks or other kinds of things Duncan Hunter's--Congressman 
Hunter's dad had to deal with as an Army Ranger. I mean, it is 
not a surprise that people take what is laying around and make 
weapons out of it.
    But I appreciate your comment, but we should not be 
surprised that enemies are agile also. Is that a fair comment?
    General Metz. Sir, that is a very fair comment and maybe I 
was--went too far in that statement because, as you have 
already articulated, our definition of an IED has been--that 
thing has been around for a long time. I think what was 
surprising to us was the enemy recognizing its strategic value. 
I think the ambush and lethal ambush has been around the 
battlefield for a long time, and it is certainly very effective 
in a tactical sense.
    And the enemy moved it to the operational sense because he 
knew that he could counter the--our strategies and doctrine for 
counterinsurgency by limiting our mobility. And he also 
realized that it had the strategic effect--and I think that I 
would hold to the argument that that was probably a surprise 
that the enemy would use a weapons system like the IED to try 
to get back to the homeland to try to affect our coalition 
partners from a strategic point of view.
    Dr. Snyder. The last question I wanted to ask is with 
regard to--Mrs. Davis talked about how do you measure success? 
And I think for a year or two or maybe even a little bit longer 
we were seeing the drop in IED attacks go down perhaps as a 
reflection of both your work and also the improvement of the 
security situation in Iraq, and--in fact, I think we talked 
about that some last year during the hearing, that that was a 
sign of success.
    Well, if we say that then we also have to say, don't we, as 
we see the attacks go up in Afghanistan, that maybe things 
aren't going the direction we want with regard to JIEDDO? It is 
probably fair to say that we shouldn't look at either one of 
those as how we measure. I mean, we are not satisfied--as Mr. 
Hunter so passionately and eloquently pointed out, we can't be 
satisfied with what is going on now.
    But I think we do have to have, perhaps, some better 
metrics for measuring, do we think we are doing the right thing 
by our men and women in uniform? What are your thoughts about 
metrics? Is it a bottom line business--as long as we see one 
attack in Afghanistan and Iraq as too many, or what do you 
think is a fair way of measuring how the American taxpayer 
should be putting these resources?
    Should we ever make decisions about more drones, less 
drones, more sniper teams, less sniper teams--what should be 
the things by which we measure your success?
    General Metz. Sir, as I lead this organization the real 
bottom line is the loss of life or limb, serious burns, the 
loss of eyesight. And I think each day that I pull up the data 
and I see that loss, I know that there has been some failure 
somewhere along the line because we lost that soldier, that 
sailor, that airman, or Marine.
    Having said that, when a commander comes out of the theater 
and we do our back briefs and that commander says that the 
training you gave me better enabled me to fight the IED, to me 
that is an outcome affirmation or metric that we were 
successful. When, for example, we shut down a company and 
indict someone for sending components through Iran to the enemy 
in Iraq to bomb our--IED our forces, that, to me, is a 
measurement of success.
    And there are a number of those, and the problem in this--
the other bottom line is, how many lives and limbs were saved? 
And I don't think we will ever be able to measure that.
    And so this metric business is very difficult. It eludes us 
in some ways, and in others may work against you when you talk 
about life or limb. In other words, last year when I was here I 
was praising our movement from when I was the corps commander 
and every IED caused a casualty to going in Iraq now to--we are 
up 9 or 10. We forced the enemy to put a whole lot more out. 
That is a whole lot of effort.
    But when you have to put the colors of the Nation into the 
next of kin's hands because of an IED that is--to that person, 
to that family we didn't make it. We didn't meet the bar well 
enough. As Congressman Hunter said, we let an IED get through 
the system.
    And so I admit that this metric business is tough, and it 
doesn't let me off the hook. We are constantly looking for ways 
to measure how well our initiatives supported the warfighter, 
what are the outcomes that my staff is producing, what are the 
assessments of those initiatives, so we can guarantee, or to 
the very best of our ability, that the resources the Nation 
gives us are properly used for the force.
    Dr. Snyder. And that probably is a good place to stop 
today.
    I know that you are interested, I know the Administration 
is interested, and the Congress is certainly interested in 
making sure our men and women have everything that they need 
and that we can give to them. And all of this discussion about 
lines of authority and funding sources and 
institutionalization--it is ultimately about achieving what Mr. 
Hunter wants to achieve and what you just--well, what we talked 
about, which is to help people stay alive and keep from getting 
injured while they are pursuing the national security 
objectives of this country.
    We will continue this discussion.
    Thank you all for being here today. I apologize for the 
votes. We are adjourned.
    [Whereupon, at 12:42 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            October 29, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 29, 2009

=======================================================================
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 29, 2009

=======================================================================
      
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS

    Dr. Schear. During my testimony on 28 October 2009 on oversight of 
the Joint IED Defeat Organization (JIEDDO), Representative Davis 
requested additional information on actions taken by the Department of 
Defense and JIEDDO to increase cooperation among the other Departments 
of the U.S. government with respect to homeland defense.
    The Office of the Assistant Secretary of Defense for Homeland 
Security and America's Security Affairs (OASD (HD&ASA)) and JIEDDO are 
working with other U.S. government agencies to ensure a whole of 
government approach both to support deployed forces and homeland 
defense.
    Specific examples of recent and ongoing partnerships between JIEDDO 
and the interagency include:

    <bullet>  Coordination with Department of Homeland Security (DHS) 
Office of Bombing Prevention (OBP) and Department of Justice's Federal 
Bureau of Investigation (FBI), to fulfill the Homeland Security 
Presidential Directive (HSPD)-19 requirement to create a Joint Program 
Office (JPO) for Combating Terrorist Use of Explosives (TUE) in the 
homeland. JIEDDO will continue active participation in this JPO to 
ensure implementation of tasks directed within HSDP-19.

    <bullet>  The OASD(HD&ASA) and JIEDDO attend the monthly TUE Joint 
Program Office meeting at FBI HQ where they continue to work with DHS, 
FBI, Bureau of Alcohol, Tobacco, and Firearms (ATF), and others to make 
progress on the various tasks and actions assigned to federal 
departments and agencies in the HSPD-19 Implementation Plan.

    <bullet>  Establishment of a memorandum of agreement (MOA) 
formalizing partnership with Department of Commerce Bureau of Industry 
and Security (BIS) for the use of contacts, data bases, and industry 
expertise to help interrupt the supply chain necessary to create IEDs 
and to assist industrial partners with the rapid deployment of emerging 
counter-IED technologies and systems.

    <bullet>  Establishment of a MOA to deploy ATF bomb specialists to 
Iraq and Afghanistan to assist DoD in exploiting IEDs, enable ATF 
explosive forensics experts to train DOD personnel in explosive-related 
crime scene procedures, and put ATF Liaison Officers at the DoD 
Counter-IED Joint Center of Excellence (JCOE) and JIEDDO HQ.

    <bullet>  DoD has worked with the FBI's Terrorist Explosive Device 
Analytic Center (TEDAC) to create a weapons technical intelligence 
process. All IED components, after in country exploitation by DoD, are 
evacuated to the TEDAC at Quantico, for additional exploitation.

    <bullet>  The JIEDDO Science Advisor chairs the Director of Defense 
Research and Engineering (DDRE) C-IED Science & Technology (S&T) 
Working Group which brings together S&T representatives from the 
Services and several agencies including DARPA and DHS. The working 
group's objective is to coordinate and de-conflict counter-IED S&T 
programs across the interagency.

    <bullet>  JIEDDO's Counter-IED Operations Integration Center (COIC) 
Interagency Partnership Team (IAPT) includes a senior executive council 
of full-time government liaison officers (LNO) who work on-site to 
coordinate and integrate relevant C-IED information. These LNOs provide 
rapid access to both time-critical information and long-term analysis 
that the JIEDDO COIC uses to tailor C-IED support for forward deployed 
units. Participating agencies include the Defense Intelligence Agency 
(DIA), Department of Justice (DOJ), National Security Agency (NSA), 
National Reconnaissance Office (NRO), National Geospatial Intelligence 
Agency (NGA), Department of Energy (DOE), and the National Ground 
Intelligence Center (NGIC).

    Please let me know if I may be of any additional assistance in this 
matter. [See page 33.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 29, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Is the level of oversight appropriate for an 
organization of this size, with this level of funding, and with such 
unique flexibility in its funding and mission? Specifically, can the 
Deputy Secretary of Defense provide sufficient management oversight of 
JIEDDO?
    Dr. Schear. The fact that JIEDDO reports directly to the Deputy 
Secretary is indicative of the importance the Department of Defense 
places on this mission. The Joint IED Defeat Capability Approval and 
Acquisition Management Process assists the Deputy Secretary in his 
oversight role through its three-tiered structure of advisory boards 
that review, evaluate, and coordinate on specific initiatives prior to 
a final decision on funding. This governance structure cuts across 
institutional lines to provide a broad and balanced look at JIEDDO 
initiatives. It consists of:

    <bullet>  A Joint IED Defeat Requirement, Resources, and 
Acquisition Board (JR2AB) composed of O6/GS-15 members from across the 
Department, including representatives from the Services, various 
sections of the Joint Staff, and Office of the Secretary of Defense. 
The JR2AB meets weekly to review initiatives and highlight any issues 
that need to be resolved.

    <bullet>  A Joint Integrated Process Team (JIPT), composed of 
military flag officers or civilian senior executive service members 
from the same organizations as the JR2AB, that also meets weekly. The 
members of the JIPT provide written recommendations to the Director of 
JIEDDO. For proposed initiatives costing less than $25 million, the 
JIEDDO Director can approve the funding. For those costing more than 
$25 million, the initiative is staffed through the Senior Resource 
Steering Group.

    <bullet>  The Senior Resource Steering Group is chaired by the 
Deputy Secretary of Defense and consists of three and four star 
military officers (including the Vice Chief of Staff for each military 
service) and equivalent senior executive service personnel, again from 
the same organizations. These high ranking defense officials provide 
written recommendations to the Deputy Secretary of Defense, who then 
makes the decision on whether to fund the proposed initiative.

    The Deputy Secretary is able to provide the appropriate level of 
oversight for JIEDDO. In fact, it would be difficult for anyone at a 
less senior level to provide adequate oversight given that JIEDDO's 
work touches components throughout the Department. The Joint IED Defeat 
Capability Approval and Acquisition Management Process ensures that the 
Deputy Secretary's decisions take into account concerns from across the 
Department.
    Dr. Snyder. How effective are the coordination mechanisms between 
JIEDDO, the Services, Defense Agencies, and geographical combatant 
commands? What might be done to improve coordination?
    Dr. Schear. JIEDDO works across the Department to support our 
deployed warfighters against the IED threat.

    <bullet>  The Joint IED Defeat Capability Approval and Acquisition 
Management Process, a three-tiered structure of advisory boards 
composed of representatives from across the Department, provides for 
senior departmental stakeholder participation in the validation and 
funding decisions that JIEDDO executes in responses to urgent 
warfighter needs.

    <bullet>  This same process also helps manage the counter-IED 
technology development portfolio; in conjunction with the Services and 
the Office of the Secretary of Defense, JIEDDO ensures the integration 
of DoD's counter-IED science and technology efforts.

    <bullet>  JIEDDO's Counter-IED Operations Integration Center draws 
both on in-house expertise and, through liaison officers from various 
federal agencies, expertise across the U.S. Government to give 
warfighters unprecedented capability to attack networks by delivering 
near real-time fused information in support of tactical unit targeting 
of human networks.

    <bullet>  In conjunction with the Joint Center of Excellence at Ft. 
Irwin, JIEDDO rapidly incorporates feedback from its deployed field 
teams, unit debriefing teams, and in-theater surveys into Service 
training programs. In addition to funding substantial modifications to 
combat training centers and home station training programs, JIEDDO 
provides pre-deployment battle staff training for brigade and 
regimental combat teams, as well as division and corps headquarters.

    <bullet>  JIEDDO is working with the United States Joint Forces 
Command to publish capstone counter-IED doctrine for Joint Forces.

    JIEDDO continues to identify further steps it can take in improving 
these processes and supporting the warfighter. DoD Directive 2000.19E, 
Joint Improvised Explosive Device Defeat Organization, is scheduled for 
revision next year. The review process will provide the opportunity for 
Departmental review, coordination, and consideration of modifications 
to C-IED authorities and processes.
    Dr. Snyder. When and how (through what mechanism) did OSD approve 
the expansion of JIEDDO's charter, mission, and organization?
    Dr. Schear. JIEDDO's charter, roles, and missions are established 
in DoD Directive 2000.19E. There has been no expansion of its charter. 
JIEDDO continues to focus on its core mission areas of rapid 
acquisition, operations and information fusion, training support, and 
strategic planning to defeat the IED threat. While JIEDDO's charter and 
mission have not changed, its organizational structure has changed to 
increase JIEDDO's effectiveness and efficiency.
    Dr. Snyder. What is unique about JIEDDO for rapid acquisition, as 
opposed other rapid acquisition authorities DOD has?
    Dr. Schear. There are three elements that distinguish JIEDDO from 
the Department's other rapid acquisition organizations.

    <bullet>  First, dollars appropriated through the Joint IED Defeat 
Fund are three-year, ``uncolored'' funds. This flexibility allows 
JIEDDO and its supporting solution developers the flexibility to commit 
funds quickly in response to rapidly emerging requirements.

    <bullet>  Second, JIEDDO reports directly to the Deputy Secretary 
of Defense, allowing for timely interaction with senior leadership and 
greater responsiveness to the warfighter.

    <bullet>  Finally, JIEDDO staff includes a number of individuals 
with first-hand knowledge of the dangers posed by IEDs, including 
coalition officers who bring their unique perspectives to the 
organization's efforts.

    Dr. Snyder. Some think that some JIEDDO capabilities such as the 
COIC might be redundant with in-theater capabilities, and that its 
training initiative runs counter to Title X authorities of the Services 
and COCOMs. What will you do about duplicative capabilities?
    Dr. Schear. JIEDDO works with both theater commanders and the 
Intelligence Community (IC) to fuse their intelligence products in near 
real time and deliver the knowledge the warfighter needs for tactical 
targeting against IED networks.
    Several intelligence working groups, liaison officers embedded in 
the COIC, and formalized working relationships keep all C-IED 
organizations aware of each other's efforts. Fusion cells in 
Afghanistan under the command of GEN McChrystal include COIC 
representatives who work with in-theater members of the Intelligence 
Community.
    All training eventually becomes a Title X authority issue. However, 
no one anticipated the sheer amount and complexity of the training 
required to counter IEDs. JIEDDO's mission is to capture those 
emerging, hard training problems and find ways for the Services and 
partners to overcome them. The Services still retain their basic Title 
X training role. JIEDDO provides a capability to adapt training rapidly 
across DoD in order to counter changing enemy technologies, tactics, 
techniques, and procedures.
    Dr. Snyder. What actions have been taken to address any of the 
findings and recommendations that this committee made in its report on 
JIEDDO from November 2008?
    Dr. Schear. JIEDDO has taken, and continues to take, steps to 
improve, streamline, and build accountability into its operations and 
processes. It has undertaken several actions that address the 
recommendations from the November 2008 committee report.
    JIEDDO is streamlining its budget estimation process and has 
implemented procedures that will provide a better analysis capability 
in building future requests. JIEDDO is working to establish the 
appropriate budget for JIEDDO along with the necessary contingency 
funds to meet our operations and development initiatives.
    As the November 2008 House Armed Services Committee Subcommittee on 
Oversight and Investigations report indicates, our tolerance for risk 
is a function of urgency. JIEDDO uses the Joint IED Defeat Capability 
Approval and Acquisition Management Process to manage and mitigate 
risk, with the expectation that not all initiatives will bear fruit. 
JIEDDO has recently revised this process to address issues of risk 
tolerance, risk assessments, areas of oversight, and coordination with 
Services and DoD components.
    JIEDDO has improved its transition, transfer, or terminate process. 
The Joint Requirements Oversight Council is now briefed on initiatives 
requiring transition or transfer to the Services, adding a critical 
oversight function to the process. What is most important is that 
JIEDDO continues to demonstrate that DoD can respond to urgent 
warfighter needs collaboratively with transparency and comprehensive 
oversight.
    DoD Directive (DoDD) 2000.19e, Joint Improvised Explosive Device 
Defeat Organization, February 2006, is scheduled for its periodic 
update by February 2010. DoD began review and coordination of this 
directive in October 2009. The review process will provide the 
opportunity for departmental review, coordination, and consideration of 
modifications to C-IED authorities and processes.
    Although measuring effectiveness is challenging, evidence clearly 
suggests that JIEDDO has had a positive impact on the IED fight by 
saving lives. JIEDDO measures its effectiveness by continuing to 
publish DoD metrics that monitor overall trends in the C-IED fight; by 
dedicating analytical assets to explore new techniques to isolate and 
link JIEDDO's contribution to these DoD metrics; and by implementing a 
set of component-based performance measures within the organization 
focused on outcomes.
    Dr. Snyder. Should we use the Joint IED Defeat Capability Approval 
and Acquisition Management Process (JCAAMP) as the model for rapid 
acquisition throughout DOD?
    Dr. Schear. Although JIEDDO was established to address a particular 
wartime threat, many of its attributes and authorities are applicable 
to rapid acquisition organizations within DOD, particularly those 
responding to Joint Urgent Operational Needs Statements or other urgent 
wartime requirements.
    Dr. Snyder. Who is the chair of the Joint Resource and Acquisition 
Board? Does it consider initiatives other than JIEDDO?
    Dr. Schear. The Joint IED Defeat Requirement, Resources and 
Acquisition Board is co-chaired by the Chief, Technology & Requirements 
Integration Division, Captain Brian Brakke, and the JIEDDO J8/
Comptroller, Captain Douglas Borrebach. The board considers only 
initiatives requesting JIEDDO dollars. Although the board receives 
information on other initiatives and programs related to counter-IED, 
it does not formally endorse or manage those initiatives or programs.
    Dr. Snyder. Who is the chair of the Joint Integrated Process Team? 
Does it consider initiatives other than JIEDDO?
    Dr. Schear. Dr. Robin Keesee, JIEDDO's Vice Director, is the chair 
of the JIPT, the higher approval level for those initiatives approved 
by the JR2AB. The board receives and reviews information on initiatives 
and programs related to counter-IED. It formally endorses those 
initiatives costing less than $25 million; those costing more $25 
million must be approved by the Senior Resources Steering Group, a 
Deputy Secretary of Defense-level advisory board.
    Dr. Snyder. What process is being used to examine and decide on 
what enduring structure(s) will host/house which enduring C-IED 
capabilities?
    Dr. Schear. JIEDDO transitions those initiatives that are expected 
to provide an enduring capability for the joint force to a Service, 
Combatant Command or agency to be established a program of record 
funded through the President's budget. Those initiatives that are 
serving the current conflict but not expected to fulfill a longer term 
requirement are transferred to a Service or Combatant Command and 
sustained through that components Overseas Contingency Operations 
supplemental request.
    JIEDDO's Transition Working Group, whose members include Service 
representatives, meets monthly to present initiatives when approved for 
funding and again as they reach subsequent transition points. The 
group's members provide input to JIEDDO's transition and transfer 
recommendations, and forward these recommendations to their respective 
leadership. In this manner, the Services and agencies have visibility 
over the initiatives moving through the rapid acquisition process and 
can assess the enduring potential of each initiative.
    JIEDDO updates the Joint Staff's Protection Functional Capabilities 
Board quarterly on initiatives that it plans to transition and 
transfer. It informs the Joint Capabilities Board, Joint Requirements 
Oversight Council, and Senior Resource Steering Group of its final 
recommendations to the Deputy Secretary of Defense on an annual basis.
    Dr. Snyder. How does JIEDDO measure its effectiveness in achieving 
its mission to defeat the IED as a weapon of strategic influence? How 
can this be demonstrated?
    General Metz. We measure our impact in three distinct ways. First, 
we continuously examine, analyze and publish the approved Department of 
Defense (DoD) metrics that monitor overall trends in the Counter-
Improvised Explosive Device (C-IED) fight. These metrics are intended 
to evaluate trends in the use of IEDs by type, location, effectiveness 
and other characteristics of concern and, when possible, to correlate 
trends in IED use to efforts and capabilities of the deployed forces.
    Second, we continue to implement and mature a set of component-
based performance measures that are focused on outcomes and are 
designed to measure the Joint Improvised Explosive Device Defeat 
Organization's (JIEDDO) effectiveness as an organization. For example, 
these measures attempt to evaluate how rapidly we meet warfighter 
requirements, how efficiently we utilize our resources to develop new 
solutions, and how effective JIEDDO-funded training prepares deploying 
forces. To date, JIEDDO has completed two thorough performance reviews, 
and we continue to refine our measures after each one.
    Finally, we continue to conduct focused operational assessments of 
individual C-IED capabilities to evaluate how well those proposed 
solutions support the deployed warfighter in the face of an adaptive 
threat.
    Clearly demonstrating JIEDDO's effectiveness is no simple task and 
defining the clear causal linkage from a JIEDDO-funded initiative to a 
measureable outcome in the C-IED fight has proven to be elusive. JIEDDO 
is an enabling organization and the employment of its deployed 
initiatives is a function of the decisions made by the recipient unit 
in the face of tactical demands and operational requirements. But even 
more challenging, those units face an aggressive and adaptive threat 
that has quickly recognized and understood the capabilities of the 
fielded C-IED initiatives and has rapidly modified their techniques and 
procedures to minimize or neutralize those deployed capabilities.
    Certain trends do, however, suggest that JIEDDO has made an impact 
and have reinforced my confidence that JIEDDO is constantly making a 
difference. When unit commanders report that their pre-deployment 
training has postured them to be effective in the C-IED fight, then 
JIEDDO has had an impact. When the enemy abandons a particular 
technique in the face of a JIEDDO-provided capability, for example the 
enemy's migration from Radio-controlled IEDs to command wire initiated 
IEDs in the face of JIEDDO's C-IED Radio Controlled Electronic Warfare 
capability, then JIEDDO has had an impact. When the number of IEDs that 
the enemy must employ in order to generate one United States casualty 
increases, then JIEDDO has had an impact. When specific initiatives are 
cited for their ability to defeat IEDs and save warfighters' lives, for 
example vehicle mounted rollers, then JIEDDO has had an impact. When 
warfighters report that the fused information provided by the JIEDDO 
Counter IED Operations Integration Center enabled them to eliminate a 
threat IED cell, then JIEDDO has had an impact. When JIEDDO's efforts 
have enabled the detection and elimination of actions by commercial 
companies who are inadvertently or intentionally supplying the enemy 
with IED components, then JIEDDO has had an impact.
    Dr. Snyder. In your letter of 15 Sept 2009 to Sen. Carl Levin, you 
urged the Senate to oppose a provision in the FY2010 NDAA passed by the 
House that would have moved $100M from JIEDDO to the Irregular Warfare 
Support Program. In this letter you note that, ``. . . specifically on 
the rise in Afghanistan, IED incidents have more than doubled from 
August 2008 to August 2009 and are now at the highest levels that we 
have experienced to date.'' After $17B over more than five years and 
still we're seeing a doubling of IED incidents in Afghanistan, why 
shouldn't we give what amounts to less than 5% of JIEDDO's FY2010 funds 
to another organization and see if they can provide effective 
solutions?
    General Metz. The doubling of Improvised Explosive Device (IED) 
incidents in Afghanistan is based on several factors. In Afghanistan, 
local insurgents, tribal factions, and the Taliban enjoy a greater 
freedom of action to emplace large numbers of IEDs in movement 
corridors vital to our success. Our challenge is further compounded 
because these groups intimidate local populaces, preventing their 
cooperation with the often suspiciously viewed Afghan government and, 
in turn, with us. This is why the Joint Improvised Explosive Device 
Defeat Organization (JIEDDO) is focused on attacking the enemy's 
network. Diverting $100 million away from Attack the Network Counter-
IED (C-IED) solutions at this time would have a detrimental impact on 
the C-IED fight.
    In response to last year's National Defense Authorization Act 
authorizing $65 million out of the Joint IED Defeat Fund to support 
Irregular Warfare Support Program (IWSP), my staff diligently worked 
with IWSP for more than 11 months to vet C-IED focused proposals. Out 
of the dozens of proposals initially vetted, and the final 11 submitted 
to the Social Dynamics Awareness Broad Agency Announcement, five were 
funded. At the end of FY09, there was only $35.33 million of C-IED 
programs in the IWSP portfolio. While JIEDDO is eager to partner with 
IWSP on C-IED solutions, the majority of submitted proposals were not 
C-IED focused, and were therefore outside of JIEDDO's mission and 
charter.
    Dr. Snyder. Are there C-IED activities that should be funded but 
aren't, for example Gen. Stanley McChrystal recently requested money 
for the Irregular Warfare Support Program (IWSP), which seems involved 
in many of your same mission areas. How is the IWSP mission distinct 
from JIEDDO's?
    General Metz. The Irregular Warfare Support Program's (IWSP) 
mission is to support Joint, interagency, and international partners 
who conduct irregular warfare. This mission is not counter-improvised 
explosive device (C-IED) focused. They seek to do this primarily by 
supporting the Theater Special Operation Commands. As the Joint 
Improvised Explosive Device Defeat Organization (JIEDDO), our mission 
is to focus (lead, advocate, coordinate) all Department of Defense 
actions in support of Combatant Commanders' and their respective Joint 
Task Forces' efforts to defeat improvised explosive devices as weapons 
of strategic influence.
    IWSP submitted 12 proposals to JIEDDO's Social Dynamics Analysis 
Broad Area Announcement (BAA), five of which were found to be C-IED in 
nature and were funded by JIEDDO in fiscal year 2009. Of these five 
projects, only one operates in Afghanistan, while none operate in Iraq. 
The remaining seven proposals submitted to the BAA were not funded by 
JIEDDO and to JIEDDO's knowledge, none operated in Iraq or Afghanistan.
    JIEDDO is not aware of a request by General McChrystal to 
specifically support the IWSP. JIEDDO has received one request for an 
IWSP program from the Combined Forces Special Operations Component 
Command-Afghanistan. That program has been funded and is now being 
assessed for effective application in Theater.
    Dr. Snyder. What actions have been taken to address any of the 
findings and recommendations that this committee made in its report on 
JIEDDO from November 2008?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) continually seeks to improve, streamline, and 
build accountability into our operations and processes. We benefit from 
the numerous and ongoing audits and reviews of JIEDDO's operations and 
I think the oversight level of JIEDDO as it currently stands is 
effective and appropriate. As a maturing organization we continue to 
develop a greater understanding of our capabilities and those areas 
where improvement is required. Reports provided to JIEDDO by the 
Government Accountability Office, Department of Defense Inspector 
General, and other oversight entities provide a context for JIEDDO to 
evaluate our progress. We have undertaken several actions that address 
the recommendations from the November 2008 committee report.
    Currently, our budget authorities allow JIEDDO the freedom to 
execute our programs and achieve rapid acquisition. We face an 
extremely agile and adaptive enemy who would love nothing more than for 
us to be pulled into the normal budgetary process. The Joint Improvised 
Explosive Device Defeat Fund's three-year colorless money provides us 
great flexibility in supporting our Combatant Commanders' Joint Urgent 
Operational Needs.
    We are working with the Department to establish an appropriate base 
budget for JIEDDO along with the necessary contingency funds to rapidly 
develop and deliver Counter-IED (C-IED) initiatives to the warfighter. 
We have improved our budget estimation process to provide a more 
accurate forecast of budget requirements as well as implemented 
procedures that will provide a better analytic capability to develop 
future budget submissions.
    As the November 2008 House Armed Services Committee Subcommittee on 
Oversight and Investigations report indicates, our tolerance for risk 
is a function of urgency. JIEDDO is willing and able to assume a high 
level of risk on initiatives that show promise in the early development 
process. We do not underwrite undue risk, but conduct assessments on 
initiatives to rapidly appraise system maturity and effectiveness. 
JIEDDO mitigates risk during the development and delivery process 
through assessments that involve key stakeholders in the Department of 
Defense (DoD), including the warfighter. We use the Joint IED Defeat 
Capability Approval and Acquisition Management Process (JCAAMP) to 
manage and mitigate risk, with the expectation that not all initiatives 
will bear fruit. A revised version of JCAAMP, signed on 6 November 
2009, addresses the issues of risk tolerance, risk assessments, areas 
of oversight, and coordination with services and DoD components. The 
JCAAMP also provides a transparent, collaborative, analytically driven 
set of processes that operate at the Department's most senior level to 
oversee the process.
    JIEDDO is the only organization in the United States government 
solely focused on IEDs by supporting all 10 Combatant Commands with 
rapid development and delivery of C-IED capabilities. JIEDDO operates 
across many domains--both in the DoD, across government agencies, and 
with our international partners. While this may cause some of our 
efforts to overlap with other organizations pursuing other missions, 
they don't have our focus and don't deliver our results. Some 
duplication is healthy in time of war to ensure the seams are always 
covered. This is not an area where we want to assume too much risk by 
seeking efficiencies that may put men and women in harm's way.
    JIEDDO is responsible for integrating all of DoD's C-IED technology 
efforts--we accomplish this with regular meetings of working groups 
that conduct horizontal integration on a vast array of efforts. 
However, further improvement is required to develop a comprehensive 
Department-wide data base to better inform these efforts.
    JIEDDO has improved its transition, transfer, or terminate process. 
Beginning in 2009, the Joint Requirements Oversight Council is now 
briefed on initiatives requiring transition or transfer to the 
Services, adding a critical oversight function to the process. What is 
most important is that JIEDDO continues to demonstrate that DoD can 
respond to urgent warfighter needs collaboratively with transparency 
and comprehensive oversight.
    Department of Defense Directive (DoDD) 2000.19E, Joint Improvised 
Explosive Device Defeat Organization, February 2006, is scheduled for 
its periodic update by February 2010. DoD began review and coordination 
of this directive in October 2009. The review process across DoD will 
provide the opportunity for departmental review, coordination, and 
determination of modifications to C-IED authorities. The proposed 
updates to our authorities laid out in DoDD 2000.19E will result in 
process refinements intended to reduce the inherent tensions between 
rapid acquisition and capability development and DoD programming 
requirements, which have been identified since JIEDDO's inception.
    Defining success in the IED fight is dependent on the adaptive 
enemies we face. Although measuring our effectiveness is challenging, 
evidence clearly suggests that JIEDDO has had a positive impact on the 
IED fight by saving lives. We measure our effectiveness through DoD 
metrics that monitor overall C-IED trends; by dedicating analytical 
assets to explore new techniques to isolate and link JIEDDO's 
contribution to these DoD metrics; and most recently by implementing a 
set of internal performance measures within my organization focused on 
outcomes. These performance measures cover key efforts of the 
organization. To date, JIEDDO has completed two thorough performance 
reviews, and we continue to refine our measures after each one.
    Regarding the recommendation to consider expanding JIEDDO's 
portfolio to other asymmetric threats, when I first arrived in JIEDDO I 
may have had a different answer, but I am more convinced than ever that 
we need to keep a laser focus on IEDs. We live in an era of persistent 
conflict where violent extremists will continue to wage conflict 
against human targets and the weapon of choice will continue to be the 
IED. We need to make an enduring commitment to this effort. JIEDDO sits 
at the center of that commitment. A permanent JIEDDO--funded in the 
base budget--is the clear signal that we understand our challenges for 
the foreseeable future and that we are willing to invest the money, the 
time, the energy, and the talent to make sure we win.
    Dr. Snyder. How is the Counter-IED Operations Integration Center 
(COIC) different from other intelligence gathering and fusion entities?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization Counter-IED Operations Integration Center (JIEDDO COIC) 
focuses on the Counter-IED (C-IED) problem at the tactical level. This 
focus is complementary to, but substantially different from, other 
organizations in the Department of Defense (DoD) and the Intelligence 
Community (IC) that also may focus on parts of the C-IED network 
structure. The JIEDDO COIC possesses capabilities that no other United 
States government entity provides with regard to the coordination and 
rapid dissemination of C-IED information to deployed forces at the 
tactical level of battalion and below within the broad spectrum of C-
IED capabilities and analyst tools. The capabilities that reside solely 
at the JIEDDO COIC include focused data fusion efforts that draw on 
information and expertise from across the spectrum of military, IC, and 
interagency partners.
    One of the most unique aspects of the JIEDDO COIC is its focus on 
providing tactical-level C-IED products to deployed forces that meet 
rigid Latest Time of Value (LTOV) requirements from local commanders. 
The LTOV is the latest time when crucial data can be effectively 
integrated into a commander's planning and execution cycle. LTOV is a 
crucial aspect of tactical operational planning. Without meeting the 
LTOV time parameters, C-IED information would not be integrated into 
operational plans, heightening the threat to forces on the ground. 
While many organizations within the IC and Combatant Commands (COCOMs) 
have the capability to produce detailed analytical products, there is 
no other organization in the United States government focused on time-
sensitive C-IED tactical support to deployed forces engaged in ongoing 
combat operations.
    The advanced all-source data fusion and network analysis is also a 
unique JIEDDO COIC capability that has the ability to access all-source 
intelligence, human terrain (i.e. environmental, ethnic, social 
factors, etc) and other C-IED data at one location using resident C-IED 
Subject Matter Experts. This is unmatched anywhere else in the IC, 
Services, or COCOMs.
    The Advanced Network Analysis attacks IED networks with three 
unique analytical teams. First, the Network Analysis Cell is a National 
Ground Intelligence Center (NGIC) entity collocated with the JIEDDO 
COIC, representing a single IC focal point for maintaining the IED 
network knowledge base. Second, the Network Dynamics Analysis (NDA) 
cell is a unique analytical team focused on effects-based targeting of 
IED networks. The NDA cell integrates traditional intelligence analysts 
supplemented by social network analysis, former law enforcement 
professionals, a psychologist, and a center of gravity analyst. Third, 
the Social Network Analysis (SNA) Cell applies a unique methodology 
that addresses shortfalls in typical network analysis by combining 
mathematical and qualitative assessments to multi-intelligence 
discipline datasets collected by military units deployed globally. 
Current IC assessments typically focus on first-order relationships 
between enemy combatants without regard for second- and third-order 
factors such as social-cultural dynamics of the networks, similarities 
between node profiles, and the impact of friendly operations on the 
importance of nodes within the network. The SNA Cell addresses these 
unique variables and applies them to IED networks.
    The JIEDDO COIC is committed to limiting duplication of its 
capabilities through effort coordination with partners across the IC, 
the military Services, and governmental organizations. Currently, the 
JIEDDO COIC has 19 Liaison Officers from various agencies and 
organizations including the Central Intelligence Agency (CIA), Defense 
Intelligence Agency (DIA), National Security Agency (NSA), NGIC, 
National Reconnaissance Office, Terrorist Explosive Device Analytical 
Center, Joint Training COIC, and the National Geospatial-Intelligence 
Agency. In addition to these agencies, the Department of Energy has an 
embedded staff officer performing a liaison function between the JIEDDO 
COIC and the National Labs.
    Additionally, the Director of JIEDDO conducts quarterly Senior 
Intelligence Leader Advisory Board (SILAB) meetings with senior leaders 
from across the IC to focus on technical solutions; identify tactical 
gaps, methodologies, and analytical approaches; and address policies 
and governance in an effort to foster communication between 
participating organizations regarding C-IED and Attack the Network 
issues.
    The SILAB provides a forum for leaders to discuss topics relevant 
to C-IED efforts, including ongoing initiatives at the JIEDDO COIC. The 
JIEDDO COIC benefits from SILAB executive-level discussions and forums 
to gain information on other agency C-IED programs and initiatives, as 
well as share the JIEDDO COIC efforts with the IC. Members of the SILAB 
are leaders (e.g. Directors and Deputies) from across the IC, military, 
and interagency partners including the CIA, DIA, NSA, NGIC, Service 
Intelligence Divisions, and the Undersecretary of Defense for 
Intelligence.
    Creating C-IED support products is a process that inherently 
minimizes redundancy and duplication due to the origin of the requests 
coming directly from the field to the JIEDDO COIC. Units deployed 
through Iraq and Afghanistan submit Requests For Support (RFS) that 
drive the JIEDDO COIC workload. Products are requested from the JIEDDO 
COIC directly by warfighters for use immediately in the field. The 
JIEDDO COIC teams forward in Iraq and Afghanistan ensure the highest 
support and least redundancy possible.
    The JIEDDO COIC currently provides 106 support professionals 
embedded with units across the Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF) battlespaces. In OIF there is a total 
of 55 personnel, 22 of which make up seven teams serving at the 
Division and Brigade Combat Team (BCT) levels. There are 51 JIEDDO COIC 
personnel deployed in OEF. Of these 51 personnel, 24 are serving 12 
teams at the Division/Regional Command and the BCT levels. These 
critical support positions ensure that warfighters receive the 
requested information, clarify the JIEDDO COIC questions regarding the 
requests, and serve as a direct link to JIEDDO in theater. In addition, 
JIEDDO conducts after action reports with returning BCTs and Regimental 
Combat Teams to discover how adequately the JIEDDO COIC support 
products reach the field, and further ensure that critical information 
has been provided and filtered down to appropriate levels. Finally, 
quality is indicated by the prevalence of units that have used the 
JIEDDO COIC support in the past and continue to request additional 
support over time. Since January 2007, the JIEDDO COIC has answered 
5,334 RFSs.
    Dr. Snyder. The GAO noted that transfer of initiatives to the 
Services was an ongoing problem. How are you working to solve this 
problem?
    General Metz. With few exceptions such as Counter-Improvised 
Explosive Device Radio Controlled Electronic Warfare (CREW) 3.1 and 
CREW 3.2, every JIEDDO effort slated to transfer to the Services has 
transferred when planned. We conduct monthly Transition Working Group 
(TWG) meetings to vet the proposed initiatives for transition, 
transfer, or termination. The TWG is comprised of action officer-level 
Service representatives. In addition, we conduct quarterly briefings to 
the Joint Chiefs of Staff (JCS) Protection Functional Capabilities 
Board, and an annual brief to the Joint Capabilities Board, Joint 
Requirements Oversight Council (JROC), and Senior Resource Steering 
Group of our final transfer proposals prior to forwarding the 
recommendations to the Deputy Secretary of Defense for a decision. 
Endorsement from the JROC in the form of a JROC memorandum adds weight 
to our transfer recommendations, and our decision to advance the 
process by six months greatly increased the opportunity for the 
Services to consider these initiatives during their Program Objective 
Memoranda developmental cycle. Through these various boards consisting 
of members from the Services, JCS, and offices of the Under Secretaries 
of Defense, we have improved coordination and transparency of our 
processes and initiatives.
    Further, I recently updated our JIEDDO Capability Approval and 
Acquisition Management Process (JCAAMP) that ensures JIEDDO-funded 
efforts do not bypass this process. Furthermore, in early 2009 I 
instituted requirement to brief all development efforts to our Joint 
IED Defeat (JIEDD) Requirements, Resources & Acquisition Board and the 
JIEDD Integrated Process Team.
    These measures will ensure Service visibility on JIEDDO-funded 
efforts as early as possible and will provide updates as efforts mature 
into proven capabilities. These measures increase the time available to 
the Services to assess the enduring nature of the initiative and 
develop a funding strategy to integrate the capability represented.
    Dr. Snyder. How does JIEDDO work with other agencies to get a 
comprehensive view of Counter IED challenges and solutions? Give 
specific agency (domestic and international) examples.
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) continues to expand contact with a myriad of 
United States government agencies to ensure a whole of government 
approach to support our deployed warfighters in Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF), as well as homeland defense 
and, by extension, the broader global Improvised Explosive Device (IED) 
threat. JIEDDO is both enabling and leveraging other federal agencies 
to meet Counter-IED (C-IED) capability requirements. JIEDDO's Counter-
IED Operations Integration Center's (COIC) Interagency Partnership Team 
program embeds Liaison Officers (LNO) from federal agencies to help the 
JIEDDO COIC access information, supply warfighters with multi-source C-
IED support packages, and minimize any duplication of effort with the 
rest of the Department of Defense (DoD), the Intelligence Community 
(IC), and the interagency. Additionally, JIEDDO headquarters has 
established formal partnerships with several federal agencies in direct 
support of the warfighter, including the Department of Commerce's 
Bureau of Industry and Security (DoCBIS); Bureau of Alcohol, Tobacco, 
Firearms, and Explosives (ATF); and the Federal Bureau of Investigation 
(FBI) Terrorist Explosive Device Analytical Center (TEDAC).
    A recent example of ongoing partnerships between JIEDDO and the 
interagency is JIEDDO and ATF's Memorandum of Agreement (MOA) to deploy 
ATF bomb specialists to the Central Command theater to assist DoD 
warfighters exploit IEDs, enable ATF explosive forensics experts to 
train DoD personnel in explosive-related crime scene procedures, and 
put ATF LNOs at the JIEDDO Joint Center of Excellence and JIEDDO 
headquarters. Additionally, the FBI's TEDAC processes Level III cases 
supporting theater exploitation efforts in OEF and OIF.
    Another example is JIEDDO's coordination with the Homeland Defense 
Combatant Commander, North American Air Defense-Northern Command, to 
assist with Federal prevention, protection, response, and recovery 
operation efforts concerning potential use of IEDs in the North 
American Area of Responsibility (AOR).
    A third example of partnering is the Department of Homeland 
Security (DHS) Office of Bombing Prevention (OBP) and FBI's 
coordination with JIEDDO in the creation of a Joint Program Office 
(JPO) for combating terrorist use of explosives in the homeland. JIEDDO 
will continue active participation in this JPO to ensure implementation 
of tasks directed within the Homeland Security Presidential 
Directorate-19.
    JIEDDO has also partnered with DoCBIS to create a MOA that 
formalized the use of contacts, data bases, and industry expertise to 
help interrupt the supply chain necessary to create IEDs and to assist 
industrial partners with the rapid deployment of emerging C-IED 
technologies and systems.
    JIEDDO has also encouraged the United States Agency for 
International Development to collaborate on efforts that would defeat 
IEDs through nongovernment organization (NGO)-run early education 
programs. This relationship has connected several NGOs with appropriate 
JIEDDO divisions and teams, including the JIEDDO Science Advisor as 
Chair of the Director of Defense Research and Engineering C-IED Science 
& Technology (S&T) working group. This working group enabled JIEDDO to 
share understanding of gaps and broader S&T efforts in C-IED S&T 
programs with key S&T representatives from Services and several 
agencies, including the Defense Advanced Research Projects Agency and 
DHS.
    Finally, JIEDDO's Weapons Tactical Intelligence Task Force is 
currently involved in multiple material and non-material solution 
initiatives to solve current information sharing gaps and a lack of 
standardized reporting both within the United States Joint Force/
Interagency environment, as well as with our Coalition Partners 
operating throughout Afghanistan. Our goal is to achieve a streamlined 
approach to information sharing, with coalition partners within the 
Afghanistan theater of operation to communicate on one system.
    Dr. Snyder. How does the COIC work with the U.S. Air Force 
Intelligence Wing at Langley Air Force Base?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) Counter-IED Operations Integration Center (COIC) 
installed two Federated Nodes (FEDNODEs) at 480th Intelligence, 
Surveillance, and Reconnaissance (ISR) Wing's Distributed Ground 
Stations (DGS) at Langley Air Force Base (AFB) (DGS-1) in Langley, VA 
and Beale AFB in Sacramento, CA (DGS-2) to increase the ability to 
share ISR across all Combatant Commands (COCOMs) and with specific 
elements in Iraq and Afghanistan. Installation of FEDNODEs at Ramstein 
AFB in Germany (DGS-4) and Hickman AFB in Hawaii is underway. The 
JIEDDO COIC plans to begin installation of a FEDNODE at Osan AFB in the 
Republic of Korea (DGS-3) during fiscal year 2010.
    The FEDNODE architecture provides a significant increase in web-
based data access, information sharing, and analysis capabilities for 
operations against IED networks and other asymmetric threats world-
wide. With each additional site added to the federation, the additional 
architecture enhances the combined situational awareness, timely 
decision making, and collaborative analysis for all users that can gain 
access through any standard computer connected to a Secure Internet 
Protocol Router or Joint Worldwide Intelligence Communications System.
    The JIEDDO COIC uses the 480th Intelligence Wing's Imagery Access 
Server to download imagery for Defense Common Ground System (DCGS) 
platforms as well as the 480th Intelligence Wing's Unicorn target 
database which is an end-to-end mission, collection, and dissemination 
management system that automates the entire processing, exploitation 
and dissemination cycle for DCGS platforms including Global Hawk, U2, 
and Predator. The data from these servers are layered with the JIEDDO 
COIC's other data sources to build products for COCOMs related to ISR 
optimization.
    Dr. Snyder. Specifically which agencies or organizations have 
liaison offices at JIEDDO headquarters, at COIC, or in theater? Do they 
include the Bureau of Alcohol, Tobacco, and Firearms; state and local 
law enforcement; FBI; or the Joint Terrorism Task Force?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) Counter-IED Operations Integration Center (COIC) 
Interagency Partnership Team includes full-time government liaison 
officers (LNO) who work on-site to coordinate and integrate relevant 
Counter-Improvised Explosive Device (C-IED) information. Participating 
agencies include the Defense Intelligence Agency, Department of Justice 
Terrorist Explosive Device Analytical Center (TEDAC), National Security 
Agency, Central Intelligence Agency, National Reconnaissance Office, 
National Geospatial Intelligence Agency, Department of Energy, and the 
National Ground Intelligence Center. The JIEDDO COIC LNO from TEDAC is 
an Alcohol, Tobacco, Firearms and Explosives agent who informally links 
with the Federal Bureau of Investigation (FBI) and the Bureau of 
Alcohol, Tobacco, and Firearms (ATF). There are currently no formal FBI 
or ATF LNOs at the JIEDDO COIC; however, there are LNOs from ATF and 
Joint Forces Command located at JIEDDO's headquarters. When certain 
military units are deployed to Iraq and Afghanistan an LNO from that 
unit is located at the JIEDDO COIC. Currently, there are six LNOs from 
deployed military units located at the JIEDDO COIC.
    While there is no Joint Terrorism Task Force liaison at JIEDDO 
COIC, both the Joint Interagency Task Force for Counterterrorism and 
the Defense Threat Reduction Agency have offices co-located with the 
JIEDDO COIC. The Army Law Enforcement Program has an element embedded 
at the JIEDDO COIC that performs liaison with Federal, state, and local 
law enforcement agencies.
    JIEDDO is working to establish one North American Air Defense-
Northern Command Integrator. Additionally, efforts to locate one ATF 
LNO at the JIEDDO Joint Center of Excellence in Ft. Irwin, CA are 
underway. In theater, representatives from several United States 
government agencies other than the Department of Defense (DoD) are 
committed to the C-IED effort and work with JIEDDO elements; however, 
none are assigned as LNOs to JIEDDO.
    Dr. Snyder. Which office at NORTHCOM is lead for IEDs?
    General Metz. The North American Air Defense-Northern Command 
(NORAD-NORTHCOM) NC34, Office of Current Operations, is involved in 
most of the Counter-Improvised Explosive Device (C-IED) tasks, but is 
not designated as the C-IED lead. All C-IED tasks are directed to the 
NORTHCOM Chief of Staff, who delegates them to the appropriate staff 
sections.
    Dr. Snyder. How ``joint'' is the Joint Training COIC (JTCOIC), 
specifically which Services/organizations have a presence or which send 
people for training? What is TRADOC's role? Do any other Services/
organizations have training COICs?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization's (JIEDDO) Joint Training Counter-Improvised Explosive 
Device Operations and Integration Center (JTCOIC) was formed in early 
2009, with JIEDDO serving as its parent organization and the U.S. Army 
Training and Doctrine Command (TRADOC) as its executive agent. As 
executive agent, TRADOC provides the facilities and personnel required 
to execute the mission. The proof of concept phase will last for two 
years, concluding at the end of fiscal year 2010. As such, JTCOIC is 
still evolving in its efforts to best support the warfighter.
    The ``jointness'' of the JTCOIC derives from the support it 
provides to Service and Joint Forces in the use of COIC tools. JTCOIC's 
specific mission is to support Army, Marine Corps, Navy and Air Force 
on Service-identified, COIC-related training requirements. JTCOIC 
provides support to service institutional training with teams in 
support of the Marine Corps' Training and Education Command, the Air 
Force's Air Education Training Command, the Navy's Expeditionary 
Training Command, and the Army's Training and Doctrine Command. Through 
these teams, the JTCOIC is now working with all of the Services to 
institutionalize Attack the Network methodology at their centers and 
schools. The JTCOIC has training teams working for each of the services 
and Special Operations Command preparing Soldiers, Sailors, Airmen and 
Marines for deployment. JTCOIC also provides direct support to the 
Joint Forces Command (JFCOM) for exercise support to units deploying to 
Iraq and Afghanistan. As part of this support, JTCOIC plays an 
important role in the Joint Event Life Cycle process that prepares 
units for deployment to Iraq and Afghanistan. JTCOIC also participates 
in JFCOM scenario development for Counter-IED (C-IED) exercise planning 
for units that are deploying to Iraq and Afghanistan. JTCOIC's use of 
operational data to provide each of the Services and JFCOM with 
modeling, simulation and gaming solutions that are the most accurate 
and current representations of enemy tactics, techniques and procedures 
is a unique and highly beneficial contribution to C-IED training.
    The individual Services do not maintain their own training COIC. 
The JTCOIC is the only organization that trains the COIC's Attack the 
Network tools. Its training support teams tailor the training to fit 
the unique needs of each Service. For example, a Navy Explosive 
Ordnance Disposal unit might use COIC specific tools for trend 
analysis, while Marine combat engineers might use those and others for 
their Attack the Network situational awareness prior to a route 
clearing operation.
    Dr. Snyder. How joint is the Joint Center of Excellence (JCE) at 
Ft. Irwin? Specifically which Services/organizations have a presence or 
send people for training? What is TRADOC's role? Why is the JCE not at 
the Joint Readiness Training Center in Ft. Polk?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) Joint Center of Excellence (JCOE) is joint in its 
organizational structure, personnel complement, execution of funds, and 
execution of training. Its headquarters, located at Fort Irwin, is 
supported by four distributed Centers of Excellence (COE): Air Force 
COE at Lackland Air Force Base (AFB), TX; Army COE at Fort Irwin, CA; 
Marine Corps COE at Twentynine Palms, CA; and Navy COE at Indian Head, 
MD. These centers link various Counter-Improvised Explosive Device (C-
IED) training support programs such as electronic warfare, biometrics, 
and Intelligence, Surveillance, and Reconnaissance (ISR) across the 
Services. There are total of 32 Service members, representing all four 
Services assigned to the JIEDDO JCOE and subordinate COEs.
    Coalition partners and United States Federal Law Enforcement have 
representatives at the JCOE. A Sergeant Major from the United Kingdom 
trained in Tactical Site Exploitation/Search, and a Senior Special 
Agent from the Bureau of Alcohol, Tobacco, Firearms and Explosives 
gives a depth of knowledge and expertise required to face the C-IED 
training support challenge. Military personnel assigned to the JIEDDO 
JCOE are not service specific to their posted location. As an example, 
the Air Force COE has representatives from all four services at their 
Lackland AFB location.
    JCOE funds initiatives benefitting all Services in its support to 
C-IED training. In fiscal year 2009 it provided $38 million to Marines, 
$99 million to Army, $5 million Navy, and $5 million to the Air Force.
    When the Services send their troops to the Combat Training Centers 
(CTCs) for pre-deployment training the JIEDDO JCOE has personnel and 
courses of instruction in place to execute. In addition, home station 
pre-deployment training for Joint forces is conducted with assistance 
from the JIEDDO JCOE Mobile Training Teams. The JIEDDO JCOE also 
provides an in-theater training support presence with seven man teams 
in both Iraq and Afghanistan. The total number of service members 
trained this year is: 63,000 Army; 3,188 Marines; 1,317 Navy; and 
47,306 Air Force.
    The JIEDDO JCOE is aligned with the service training commands, such 
as the Army Training and Doctrine Command (TRADOC), USMC Training and 
Education Command (TECOM), USAF Air Education and Training Command 
(AETC), and the Navy School Explosive Ordnance Disposal, which is a 
joint service command. The JIEDDO JCOE has a liaison representative at 
TRADOC. Additionally, members from the JCOE attend the TRADOC 
Integrated C-IED Development Team General Officer Steering Committee 
and other quarterly meetings. The JIEDDO JCOE also has a contractor 
representative at TECOM and has a relationship similar to that of 
TRADOC. JCOE's other liaison locations include: 1st Army in Ft. Gillem, 
GA; the Maneuver Support Center in Ft. Leonard Wood, MO; and at Ft. 
Leavenworth, Kansas.
    The AFCOE is located at the same AFB as the headquarters for AETC. 
This has resulted in C-IED training improvements to Air Force Basic 
Military Training as well as predeployment training for Security Forces 
and Individual Augments. The NCOE actively coordinates with the Navy 
Explosive Ordnance Disposal (EOD) School and the Navy EOD Technical 
Division for development, test, and fielding of Radio Controlled IED 
and EOD training equipment.
    The JIEDDO JCOE was headquartered at Ft. Irwin in 2006 because of 
the large throughput of military personnel trained, existing training 
support infrastructure and desert terrain. The Commanding General of 
the National Training Center (NTC) at Ft. Irwin also serves as the 
Director of the JIEDDO JCOE.
    The relationships between the JCOE and the Services are enhanced 
through its component locations: ACOE is at the NTC, the Army's leading 
Combat Training Center; MCOE is located at Twentynine Palms CA, where 
Marine units undergo predeployment training; AFCOE is at Lackland AFB 
for coordination with AETC; and the NCOE is located at Indianhead MD, 
where it has daily interaction with the Navy Expeditionary Combat 
Command.
    JCOE has also established C-IED training teams at the Joint 
Readiness Training Center in Ft. Polk, LA, as well as the Joint 
Multinational Readiness Center in Hohenfels, Germany.
    Dr. Snyder. It seems the term ``IED'' is becoming all inclusive. 
Discuss what the definition of an IED should be--road, house (booby 
trap), person (suicide bomber), vehicle (car bomb), airborne (9/11), 
ship borne (U.S.S. Cole), etc. What have we learned from the British 
(mail borne IEDs, etc.) and the Israelis?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) Weapons Tactical Intelligence (WTI) Improvised 
Explosive Device (IED) Lexicon defines an IED as: ``A device placed or 
fabricated in an improvised manner incorporating destructive, lethal, 
noxious, pyrotechnic, or incendiary chemicals and designed to destroy, 
incapacitate, harass, or distract. It may incorporate military stores, 
but is normally devised from nonmilitary components. Refers to a type 
of IED incident that involves a complete, functioning device.''--WTI 
IED Lexicon, Second Edition (Dec 2008)
    Additionally, there are definitions within the Lexicon for water-
borne IED, person-borne IED, under vehicle IED, aerial-borne IED, 
vehicle-borne IED, and large vehicle-borne IED. While these further 
refine the methods of employment of the IED weapons system, they are 
considered `tactical design' designators of a device, and are not 
included in one overarching definition for an IED.
    All of the examples cited have been improvised devices that 
explode, and JIEDDO is actively pursuing a defeat of those devices. 
More specifically, JIEDDO's mission is to eliminate the strategic 
effect of such devices. Thus, a letter bomb probably does not have 
substantial strategic effect as there are extensive mail handling 
facilities that have been effective at stopping letter bombs.
    JIEDDO is in ongoing consultation with all of our allies, and 
conducts extensive discussions with the British and Israelis multiple 
times throughout the year. We regularly meet with Israelis to discuss 
ongoing issues and have worked with them to share technology that they 
have found helpful in the past and improved upon it for current uses in 
the field.
    JIEDDO's information sharing with our British partners is constant 
and ongoing. In addition to regular working group meetings, 
conversations and conferences, JIEDDO has a number of expert British 
officers embedded within JIEDDO to ensure constant sharing of best 
practices and lessons learned.
    Dr. Snyder. Your testimony focuses on brigade and regiment through 
corps level. Is this what is meant by the tactical level rather than 
battalion and below?
    General Metz. At the tactical level, operations are planned and 
conducted by Brigade (Army) and Regiment (Marine Corps) and below. In 
the current conflict, Division and Corps headquarters link tactics and 
strategy by establishing operational objectives needed to accomplish 
the strategic objectives, sequencing events to achieve the operational 
objectives, initiating actions, and applying resources to bring about 
and sustain these events.
    We differentiate between Division and above and Brigade and below 
because they have distinctly different employment mission sets and 
therefore require different training.
    Joint Improvised Explosive Device Defeat Organization's (JIEDDO) 
training has a powerful impact on Counter-IED (C-IED) success at both 
the tactical and operational levels. The training provided by the 
JIEDDO Joint Training Counter Operations Integration Center (JTCOIC) 
focuses on Division and Corps staffs. A Division is a tactical 
headquarters while the Corps serves as the seam between tactical and 
operational level warfare. Training provided at the JIEDDO Center of 
Excellence focuses on training at the Brigade and Regiment level and 
below--the tactical level.
    Tactical level training by the JCOE is further supported by the 
various Service Centers of Excellence: the Marine Corps at Twentynine 
Palms, CA; Army at Fort Irwin, CA; Navy at Indian Head Naval Surface 
Warfare Center, MD; and Air Force at Lackland AFB, TX. Training at the 
tactical level also takes place at the 57 home station training lanes 
located at 55 military installations throughout the United States, and 
in Germany and Korea.
    Dr. Snyder. Your testimony for ``Train the Force'' mentions 
``signatures and social dynamics.'' Please describe and explain. Which 
agencies and organizations are trained by JIEDDO or through JIEDDO 
funding--State, USAID, contractors, NGOs, UN, or foreign partners?
    General Metz. There are basically two types of ``signatures'' 
training. The first type deals with Homemade Explosives (HME). The 
Joint Improvised Explosive Device Defeat Organization (JIEDDO) Joint 
Center of Excellence (JCOE) funded a HME Mobile Training Team (MTT) 
that provides home station training support to teach troops at the 
Brigade Combat Team and below level on how to identify HME observables. 
The HME MTT also provides training to Combat Training Centers and Home-
station Train-the-Trainer personnel. The JIEDDO Joint Training Counter-
IED Operations Integration Center does the same at the Division and 
above level, concentrating on training leadership and staff planners. 
HME detection packages are being deployed to the field to assist ground 
forces institute this signatures training. JIEDDO is working with 
Central Command to begin training collection managers and analysts on 
the use of HME signatures. The JIEDDO JCOE also teaches HME detection 
and signatures to Explosive Ordinance Disposal and Engineer units via 
mobile training teams. These courses of instruction emphasize HME 
indicators, precursors and ingredients, explosive hazards and immediate 
actions. They are ``train the trainer'' focused and have had 
participation from all services, as well as the Bureau of Alcohol, 
Tobacco, Firearms and Explosives, the Central Intelligence Agency, and 
the Department of Homeland Security.
    The second type of ``signatures'' training focuses on the 
scientific research being conducted in the area of visual detection of 
IEDs. As assessed by our criterion measures, both inherent traits and 
experience-related characteristics proved essential to IED detection 
performance. Our results suggest that IED detection is largely a 
cognitive task, relying on visual, attentional, and memory processes. 
One significant finding that emerged indicates certain hobbies are 
relevant to successful IED detection. Specifically, participation in 
hunting, puzzles, art, and music predicted superior performance, as did 
time in service, deployment experience, and age.
    JIEDDO is currently reviewing proposals and ideas which would 
address the issue of cultural and social dynamics in training, but none 
have reached the implementation stage yet. A social dynamics trainer, 
or training program, will probably never be a stand-alone initiative. 
It will more likely be incorporated into other Counter-IED efforts, 
particularly for the intelligence capability within battle staffs for 
HME signature detection and for maneuver units for visual detection of 
IEDs.
    Dr. Snyder. What percentages of the JIEDDO workforce are military, 
reserve component military, contractors, and government civilians?
    General Metz. As of 1 October, the JIEDDO workforce requirements 
totaled 3,685 military, government civilians and contractors. Of the 
3,685 personnel, 134 are military personnel (comprising 3.6% of the 
total JIEDDO workforce), 135 are government civilian personnel 
(comprising 3.6% of the total work force), 0 reserve component military 
personnel, and 3,416 contract personnel (comprising approximately 92.7% 
of the total JIEDDO workforce). In addition to the current JIEDDO 
workforce, JIEDDO has received approval from the Department of the Army 
for 119 additional Army reserve component military positions; however, 
these 119 positions were not included as part of the 1 October 2009 
personnel numbers. On 6 November 2009, the Department of the Air Force 
approved 13 Air Force reserve component military positions. The 
additional 119 Army reserve and 13 Air Force reserve positions brings 
the total JIEDDO approved manpower requirements to 3,717 (3,685 plus 
119 Army reserve and 13 Air Force reserve positions). As of 6 November, 
the JIEDDO reserve component military positions comprise 3.5% of the 
JIEDDO total workforce. JIEDDO has requested an additional 23 reserve 
component military positions from the USMC and 30 reserve component 
military from the USN. If these are approved, the JIEDDO will have a 
total reserve component military of 185 (all Services), increasing the 
total JIEDDO workforce requirements to 3,770 (3,717 plus 23 USMC 
reserve and 30 USN reserve positions), and the total JIEDDO reserve 
component military personnel requirements will comprise 4.9% of the 
total JIEDDO workforce. These personnel calculations are based on 
JIEDDO's 1 October 2009 baseline personnel numbers.
    Dr. Snyder. Describe some specific instances or examples of how the 
Deputy Secretary of Defense has provided management oversight to 
JIEDDO.
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization's (JIEDDO) high impact is due to its direct reporting 
chain to Deputy Secretary of Defense (DEPSECDEF) and to special 
Congressional funding. Both are vital--they give JIEDDO unimpeded 
access anywhere it needs to go to solve the Improvised Explosive Device 
(IED) problem.
    Through my reporting chain I have a direct line of communication to 
the DEPSECDEF and I am updating the Deputy Secretary on the IED threat 
and JIEDDO's countermeasures on a monthly basis. As our force strength 
migrates to Afghanistan where the IED threat is on the rise, this 
JIEDDO reporting chain should be retained to interact with our most 
senior leaders in the Department.
    I meet with the DEPSECDEF at least monthly on JIEDDO matters to 
ensure that he has a complete understanding of our requirements and 
activities. Furthermore, all JIEDDO initiatives that are equal to or 
above $25 million require approval from the DEPSECDEF prior to the 
obligation of those funds.
    Additional oversight is provided to proposed JIEDDO Counter-IED 
efforts by Flag or SES-level representatives from the Offices of the 
Under Secretaries of Defense, the Assistant Secretary of Defense for 
Networks and Information Integration, the Department's General Counsel, 
and Director Cost Assessment and Program Evaluation Office (CAPE) 
through their participation on our Joint IED Defeat (JIEDD) Integrated 
Process Team. Efforts requiring funding that exceeds $25 million are 
reviewed by the JIEDD Senior Resource Steering Group (SRSG), an 
advisory body to the Deputy Secretary of Defense. SRSG membership 
consists of the Principal Deputies of the Under Secretaries of Defense, 
the Principal Deputy ASD, Principal Deputy General Counsel, the Deputy 
Director CAPE, and Director Joint Rapid Acquisition Cell, as well as 
the Vice Chief of Staff of the Army, Vice Chief of Naval Operations, 
Vice Chief of Staff of the Air Force, Assistant Commandant of the 
Marine Corps, and the Joint Chiefs of Staff J-8.
    Finally, since JIEDDO's establishment there have been five Deputies 
Advisory Working Group meetings at the Deputy Secretary of Defense 
level to grapple with key problems requiring a decision from the 
Department.
    Dr. Snyder. Some think that some JIEDDO capabilities such as the 
COIC might be redundant with in-theater capabilities and that its 
training initiative runs counter to Title X authorities of the Services 
and COCOMs. How will you integrate acquisition plans with the Services 
and COCOMs?
    General Metz. The Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) works with both theaters and the Intelligence 
Community (IC) by fusing their intelligence products in near real time 
and delivering the results as knowledge to the warfighter, enabling 
tactical targeting against Improvised Explosive Device (IED) networks. 
It is a highly refined use of intelligence products.
    Several intelligence working groups, Liaison Officers embedded in 
the JIEDDO Counter-IED Operations Integration Center (COIC), and 
formalized working relationships keep all involved organizations 
situationally aware of each other's efforts. Fusion cells in 
Afghanistan under the command of GEN McChrystal include COIC 
representatives who work with other in-theater members of the IC.
    JIEDDO constantly strives to raise the bar on behalf of the 
Services by rapidly countering changing enemy technologies tactics, 
techniques, and procedures and infusing our cutting edge responses into 
our training base across the Department of Defense (DoD). Home Made 
Explosive training at the Joint Center of Excellence is a perfect 
example of this.
    Unfortunately, no one could have anticipated the sheer amount and 
complexity of the training required to successfully counter IEDs. 
JIEDDO's mission is to capture those emerging, hard training problems 
and find ways for the Services and our partners to overcome them. To 
guarantee our continued success in this area, we are in the process of 
developing a comprehensive DoD-wide Counter-IED (C-IED) training 
architecture that will give us an evolutionary jump forward by 
federating all ongoing C-IED training across the Services, the 
interagency, and our partner nations. Proven training capabilities will 
transition or transfer (T2) to the Services for sustainment and further 
integration. Six such initiatives T2'd this fiscal year and 13 more are 
currently slated to T2 during both FY11 and FY12. These numbers are 
subject to modification pending the FY10 Appropriations bill. By 
sharing our resources, insights, and practices, we plan to achieve a 
level of training synergy never seen before. The key to our success has 
been, and always will be, world-class training.

                                  <all>

</pre></body></html>
